<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
        INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 3, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.
    Present: Senators Bond and Mikulski.

                   EXECUTIVE OFFICE OF THE PRESIDENT

                Office of Science and Technology Policy

STATEMENT OF JOHN H. MARBURGER, III, DIRECTOR

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF RITA R. COLWELL, DIRECTOR
ACCOMPANIED BY:
        WARREN M. WASHINGTON, CHAIR, NATIONAL SCIENCE BOARD
        CHRISTINE C. BOESZ, INSPECTOR GENERAL
        MARY CLUTTER, ASSISTANT DIRECTOR FOR BIOLOGICAL SCIENCES

            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Welcome. The Subcommittee on Veterans, 
Housing, and Independent Agencies will come to order. This 
hearing will be on the budget for fiscal year 2004 for the 
National Science Foundation, the National Science Board, and 
the Office of Science and Technology. We are pleased to welcome 
back Dr. John Marburger from OSTP, Dr. Rita Colwell from NSF, 
Dr. Warren Washington from the National Science Board, and we 
also welcome back Dr. Tina Boesz, Inspector General of the NSF, 
who has done an outstanding job of providing independent and 
objective information on the Foundation's management practices.
    Because of very busy schedules today I have asked my 
distinguished colleague, Senator Mikulski, to give her opening 
statement first because I know she has many commitments, and we 
will try to do our best carrying on without her.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Well, thank you very much, Mr. Chairman, 
and I want to thank you for your courtesy and, of course, to 
welcome Drs. Colwell, Marburger, Washington, and Boesz. I once 
again want to reiterate how glad I am that we are partners on 
the National Science Foundation appropriations, and in our 
continued national goal of doubling NSF's budget; we are now in 
our second year of our 5-year commitment.
    It looks like it is going to be a bit difficult to meet the 
doubling commitment, but the commitment is still there because 
not only do we think that science is bipartisan, but that 
science should be nonpartisan, and that we need to work 
together to fund the next generation of scientists and the next 
generation of ideas.
    When I look at the NSF budget for 2004, I note that it is 
just 3 percent over last year, and I am troubled that the 
research budget, the very core of NSF, is increased only by 1.2 
percent. This number does not even account for inflation.
    We were disappointed last year with the NSF budget, and we 
still are. We are wholeheartedly and enthusiastically behind 
the increase in the National Institutes of Health, but it is 
not that we should fund one and not the other. I believe this 
is not an NSF budget. I believe it is an OMB budget.
    In the omnibus, Senator Bond and I gave NSF a 10 percent 
increase over last year. Every major report on long-term U.S. 
economic competitiveness has cited the need for major increases 
in scientific research. This is where the ideas and the jobs 
will come for tomorrow.
    The paltry 1.2 percent increase in research stands in 
marked contrast, however, to the increase for major equipment. 
I think we should keep an eye on the major equipment. We do 
need the hardware and telescopes and we are very pleased at the 
modernization at the South Pole, which had not been done in a 
number of years, but we need to really be looking at research.
    The education budget fares only slightly better. It is 
increased by 4 percent, primarily in the President's Math and 
Science Partnership. We want to support the President, but we 
need to look at a more balanced approach.
    I am enthusiastic, though, about the increase of graduate 
stipends to $30,000. Last year, we increased it from $18,500 to 
$25,000, and I said to Senator Bond, this could turn out to be 
one of the most important things we do this year, and I am so 
pleased that you told us that applications have gone from 5,000 
to 8,000, and thanks to my Senator's calculations that is a 60 
percent increase.
    I believe that the President, his team, and you are very 
wise to say, let us increase it to $30,000, because I truly 
believe for many of our students their student loans are their 
first mortgage, and they cannot continue to layer on debt, 
particularly if they are looking for jobs in academia or in the 
nonprofit world.
    So we really look forward to this. However, we do hope that 
we can find a way to fund TechTalent, which goes to 
undergraduate education, which being an Oriole fan, I know how 
important a farm team is. It really starts K through 12, even 
really starts in Head Start, but all the way through, to make 
sure that our undergraduates are working on this.
    We want to continue to work on workforce readiness, focus 
particularly on women and minorities, and we cannot forget our 
community colleges. Perhaps it does not prepare people for 
Ph.D.s, but it prepares them for the science world we need, the 
community college graduate in nursing, radiology technology. 
Allied healths alone, as well as some of the other basic 
fields, would be very important.
    And again, we want to thank Dr. Marburger, an advisor to 
the President, and we look forward to working with him. Our 
homeland security does continue to be a top priority with both 
of us, and we look forward to hearing you.
    Mr. Chairman, thank you. Those are my remarks, and just 
because I might have to leave does not mean that you do not 
have my wholehearted support in an idea on how we can continue 
our doubling efforts in strategic areas.

                           PREPARED STATEMENT

    Senator Bond. Senator Johnson has submitted a statement 
that he wishes to be included for the record.
    [The statement follows:]
               Prepared Statement of Senator Tim Johnson
    Thank you Chairman Bond and Senator Mikulski for holding this 
important hearing today. I look forward to the testimony of our 
distinguished witnesses this morning to discuss the exciting 
opportunities in science and technology.
    I strongly support efforts to enhance core sciences through 
investments in capacity, education, and basic research. Efforts to 
double the resources allocated to the National Science Foundation are 
essential to reinforce our understanding in multiple scientific 
disciplines. I applaud Senators Bond and Mikulski for their leadership 
on behalf of NSF and our scientific community.
    The work of the National Science Foundation is instrumental to 
support basic research. The discoveries we make in core sciences lay 
the groundwork for applications and breakthroughs that impact 
telecommunications, health care, environmental sciences, biotechnology, 
and numerous aspects of our lives. Many of these developments evolve 
into commercial adaptations and other products which contribute to our 
national security, economic growth and enhance our quality of life.
    I strongly support the important work accomplished by the EPSCoR 
program to help small States develop R&D infrastructure at colleges and 
universities. NSF's EPSCoR program has been instrumental in expanding 
scientific opportunities and building the capacity necessary to sustain 
research and development initiatives around the country. While the 
fiscal year 2004 budget proposal for EPSCoR is disappointingly low, I 
hope that we may work together to reinforce our commitment to develop 
scientific opportunities in all sectors of higher education.
    There remains a great deal of interest within the scientific 
community with regard to establishing a National Underground Science 
and Engineering Laboratory. The National Academies of Science have 
reviewed the potential merits of such an initiative and have reported 
favorable findings. As the National Science Foundation continues to 
prioritize the needs and opportunities for fundamental scientific 
exploration, we appreciate the consideration provided to the views of 
scientists and researchers regarding this proposed initiative.
    I congratulate NSF for undertaking exciting endeavors to better 
understand the composition, evolution, and interactive systems of our 
planet. The EarthScope initiative is employing new observational 
technologies to investigate the structure and dynamic processes of the 
North American continent. Among the many potential benefits of this 
program, the research may provide greater understanding of the 
evolution of the Rocky Mountains and the Northern Great Plains.
    The NEON concept is another promising effort being initiated at NSF 
to establish national sites for the ``National Ecological Monitoring 
Network.'' We look forward to the contributions of this important 
research.
    I applaud the National Science Foundation, the National Science 
Board, and the Office of Science and Technology Policy for their 
commitment and dedication to our Nation's science programs.

    Senator Bond. Well, thank you very much, Senator Mikulski, 
and before Senator Mikulski leaves I am going to take the 
chairman's prerogative to tell you a little parochial story.
    This past Friday, talking about getting young people 
interested, I went to the St. Louis Science Center, which I 
believe is partially funded through the informal science 
education program. I was announcing three-quarters of a million 
dollars to help them develop a program to explain biotechnology 
to the kids, but the greatest thing, it was a rainy day and the 
place was jam-packed. They expected 10,000 kids, and there were 
kids from kindergarten up through all the grades. They were 
coming into this wonderful area to get them enthused and 
interested and curious about science.
    And we are talking about the farm team. This is beginning 
to work at the little leagues, because if we can get them 
interested in and enthusiastic about science, we have got an 
opportunity to make mathematicians and scientists out of them. 
That is when I got really interested in it, and I was on that 
path until I ran into the theory of calculus, and that is when 
I decided to go into social sciences.
    Senator Mikulski. Senator, for me it was organic chemistry 
and Boyle's gas laws, and there I learned that gas takes the 
size and shape of its container. That is interesting to know 
when you join the Senate.
    Senator Bond. Senator, I do not believe we will follow that 
one any further. I believe we have gone far enough down that 
line. Now back to work.
    But I agree with you it is truly exciting to see young 
people who are getting interested in science, and we have got 
to have lots more of them. Senator Mikulski and I have long 
joined you as leaders in our science effort to say that the 
tremendous challenge that our Nation faces is our failure to 
educate enough mathematicians, scientists, and engineers to 
deal with the tremendous developments that are coming forward 
in the future, so that is a very strong personal interest that 
we have.
    But this hearing is a very important one today, because it 
gives us the opportunity to talk about the critical role the 
National Science Foundation plays in the economic and 
intellectual growth and the well-being of the Nation. Most 
policy experts believe that investment in the physical sciences 
and engineering not only benefits the high tech industries but 
all major research areas, including biomedical research.
    In the words of Dr. Harold Varmus, the former Director of 
the National Institutes of Health, scientists can wage 
effective war on disease only if we as a Nation and as a 
scientific community harness the energies of many disciplines, 
not just biology and medicine, close quotes, or in my words, 
supporting NSF supports NIH.
    Unfortunately, while Federal support in life sciences has 
increased significantly, the combined share of the funding for 
physical science and engineering has not kept pace. I am 
alarmed and troubled by this disparity, because a decline in 
funding for the physical sciences has put our Nation's 
capabilities for scientific innovation at risk and, equally 
important, at risk of falling behind other industrial nations.
    Even the President's Council of Advisors on Science and 
Technology, the PCAST, believes that if the Federal Government 
continues the present pattern of funding between life sciences 
and physical sciences, it will, quote, lead to an inability to 
sustain our Nation's technical and scientific leadership, end 
of quote. That is why my good friend, Senator Mikulski, and I 
have led a bipartisan, bicameral effort to double NSF's budget.
    I was very pleased that late last year PCAST recommended to 
the President that, beginning with the fiscal year 2004 budget 
and carrying through the next 4 fiscal years, funding for the 
physical sciences and engineering across all relevant agencies 
be adjusted upward to bring them collectively to parity with 
life sciences. Further, the President signed the NSF 
reauthorization bill last fall which authorizes $6.39 billion 
for NSF in fiscal year 2004, and called for a doubling of NSF's 
budget over 5 years.
    Therefore, I was deeply disappointed that the budget 
request only provided $5.48 billion for fiscal year 2004, a 
paltry $170 million or 3.2 percent increase over fiscal year 
2003. I have that feeling that Charlie Brown must have had when 
he asked Lucy to keep holding the football for him.
    To say that OMB's budget request for NSF is disappointing 
would be an understatement. Nevertheless, we intend to continue 
fighting for additional funds for NSF despite the challenges in 
meeting funding needs for VA medical care, affordable housing, 
environmental protection, and space shuttle safety.
    Let me just highlight a few areas in the budget. In the 
area of education, the cut to the TechTalent or STEP program 
again was disappointing. Senator Lieberman initiated this 
program along with Senator Mikulski, Senator Frist, Senator 
Domenici, and myself. At a time when the number of U.S. 
undergraduates in engineering and mathematics is declining, it 
is puzzling that the administration would propose a 70 percent 
reduction in a program designed to increase the number of 
undergraduates in these fields.
    My biggest disappointment, however, is the cut to the plant 
genome program. Now, you may know I am a big supporter of plant 
biotechnology because it has generated exciting possibilities 
for improving human health and nutrition that eventually can be 
a very powerful tool for addressing hunger in many third world 
developing countries such as those in Africa and Southeast 
Asia.
    The fiscal year 2004 budget request provides only $75 
million for the NSF plant genome program, a $10 million cut 
from the fiscal year 2003 enacted level. The request seems to 
contradict the National Science and Technology Council's 
January 2003 report, which recommends the Federal Government 
invest $1.3 billion over the next 5 years on plant genome 
research. The plant genome program deserves more funding, and I 
hope to be able to address that in the fiscal year 2004 bill.
    Let me now touch on a few other issues. First, I am 
interested in the National Science Board's operations and its 
implementation of a number of legislative directives enacted in 
the last Congress to ensure that the Board has tools to meet 
its statutory responsibilities. For fiscal year 2003, the 
Congress provided a separate budget of $3.5 million to fund the 
Board's operations but, contrary to law, the administration 
zeroed out the budget for 2004.
    I expect the administration to comply with the statute. For 
now, I will give the administration the benefit of the doubt 
that this was a simple oversight, and that the administration 
will submit a budget amendment to correct this obvious mistake.
    Providing the Board with its own budget and hiring 
authority are two important steps in supporting the Board's 
independence. In other words, Congress took steps to ensure 
that the Board not be a rubber stamp for the Director of NSF, 
or the NSF organization itself. It was to be an independent 
organization offering advice and guidance and counsel.
    But these are only the first steps. We also need to look at 
the structure of the Board's executive committee. The statute 
requires the Director to be the chair of the executive 
committee. It makes more sense to me that the NSB Chair leads 
the committee.
    Before closing, I want to raise a few points about the 
Foundation's management. Last year before this subcommittee the 
inspector general raised a number of significant problems with 
the Foundation's management. Based on my review of the 
inspector's written testimony submitted for today's hearing, 
she continues to raise the same concerns, most notably large 
facility project management.
    Over the past 3 years, the IG has conducted two significant 
audits of NSF's large research facility management, and 
recommended additional NSF oversight. However, I was 
disappointed to read in the IG's written testimony submitted 
today, she states, quote, the key recommendations from both 
these reports which relate to the development of new project 
and financial management policies and procedures remain 
unresolved by NSF management, close quotes.
    My view is that NSF must take the management issues more 
seriously and with greater urgency. I am very pleased the 
Foundation has finally hired a new deputy director for large 
facility projects. It is a positive step in the right 
direction, but clearly more needs to be done, and faster.
    Dr. Colwell, you have over a year left in your tenure. 
During your tenure, I know you have taken a great deal of pride 
that NSF has achieved a number of scientific policy and 
scientific goals, and we all benefit from those and we applaud 
those. All these goals can be overshadowed, however, by 
management problems if they are not resolved. It is my hope 
that you will use this year to solve these current management 
problems, and I think they can be resolved relatively quickly 
and easily, but the longer they persist, the harder they will 
be to fix. The long term viability and performance of the 
agency depends on a solid management and fiscal responsibility.
    With that, I conclude my statement, and I will call on 
first Dr. John Marburger, Director, Office of Science and 
Technology Policy. Unfortunately, much to your great relief, I 
had to cut my statement short. Senator Mikulski cut hers short. 
We are in a food fight on the floor over the supplemental 
appropriations, so we have regrettably had to impose a time 
limit on the witnesses today. We will take your entire written 
testimony and ask that you submit any further ideas or 
information in writing. We will have time, I hope, for a round 
or two of questions.
    Dr. Marburger.

                  STATEMENT OF JOHN H. MARBURGER, III

    Dr. Marburger. Thank you, Mr. Chairman. I will cut out all 
of the diplomatic thank yous at the beginning, but I do want to 
express my appreciation to this committee for your support of 
science during the past years and the excellent record that you 
have enabled us to achieve in the sciences in this country. I 
will summarize my longer written statement.
    This budget requests another record-high level of funding 
for R&D, $123 billion, or a 7 percent increase over the 2003 
request. The proposal does establish priorities. More than $5.9 
billion of the R&D increase is in the Department of Defense 
development activities, reflecting the President's commitment 
to bolster our national defense and to win the war against 
terrorism. In preparing this budget, the administration has 
taken advice from numerous planning and advisory bodies that 
exist to guide science priorities, including PCAST, as you 
mentioned, various committees under the National Science and 
Technology Council, and Members of Congress, including this 
committee.
    As we produced the fiscal year 2004 budget proposal we did 
not have final fiscal year 2003 numbers, so we related our 
budget figures to the President's fiscal year 2003 request. I 
will make comparisons to that base in my testimony, but I will 
also refer, where we have the numbers, to the recently passed 
fiscal year 2003 actual numbers.
    So first let me turn to the budget for my Office of Science 
and Technology Policy. We have primary responsibility in the 
White House to coordinate interagency research initiatives. The 
2004 request for OSTP is $7.027 million and it includes funding 
that is not reflected in previous OSTP budgets for rent and 
security costs associated with our relocation from the 
Eisenhower Executive Office Building. It also includes 
additional funding associated with responsibilities that our 
office has in the area of national security emergency 
preparedness, so the total new funding in these categories 
represents $1.542 million of our 2004 request.
    For purposes of comparison, if you take out that sum, our 
request would represent less than a 2.2 percent increase over 
the previous levels requested for our core OSTP mission. So I 
would be glad to answer more questions about the OSTP budget if 
you have them, but now I would like to turn to highlight the 
budgets for the agencies for which this Senate committee has 
oversight.
    I am pleased to be here today with the Director of the 
National Science Foundation, Rita Colwell, and the Chairman of 
the National Science Board, both of which are important to this 
committee and to this administration. The 2004 budget request 
increases the overall NSF budget by $453 million, or about 9 
percent relative to the 2003 request and, as you noted, 3 
percent over the enacted 2003 level.
    This committee has shown strong support for Federal 
research in physical sciences, including that conducted under 
the NSF umbrella. The fiscal year 2004 investment for physical 
science at NSF would increase by $100 million, or 13 percent 
over the 2003 request. In order to attract and retain more U.S. 
students into science and engineering, as you noted in your 
opening remarks, this budget proposal increases individual 
awards for graduated stipends from $25,000 to $30,000 annually. 
I think Senator Mikulski noted that.
    For NASA, the President's request represents a total 
funding increase of 9 percent, and nearly $9.2 billion for the 
Federal science and technology programs, a 5 percent increase 
over the 2003 request, and 2 percent over the enacted level. 
The President's commitment to space exploration is evident in 
this budget, which was conceived before the tragic loss of the 
Columbia astronauts. The total funding for NASA is proposed to 
increase 3.1 percent over the 2003 request, and the shuttle 
budget, after taking into account the transition to full-cost 
accounting, receives nearly a 5 percent increase over the 
request for 2003.
    We thank the committee for your support for funding in 2003 
for the important work of the Columbia Accident Investigation 
Board, which will produce a report to which we are looking 
forward very eagerly.
    The budget for the Environmental Protection Agency provides 
$776 million in the Federal science and technology category. 
The Agency has appointed a science advisor to improve science 
integration coordination across this Agency, and I am pleased 
at the progress that it is making in incorporating science in 
their recommendations.
    There is a small set of priority R&D areas that are 
targeted in the President's budget request. Let me just list 
these and the amounts. The first area is combating terrorism, 
where the President has proposed $3.2 billion in R&D funding 
for homeland security. That is across all agencies. More than 
$900 million of this funding is requested for the new 
Department of Homeland Security, including $803 million 
specifically in the Science and Technology Directorate in that 
new Department.
    On the computing initiative, the President's proposal 
includes $2.2 billion for networking and information technology 
R&D, a 6 percent increase over last year's request.
    The largest increase in this category, interestingly, is in 
the Department of Health and Human Services, which would 
increase by $67 million, or 18 percent above fiscal year 2003, 
which reflects the importance of bioinformatics in this era of 
genomics.
    The nanotechnology initiative--for that initiative the 
President's request provides $849 million. It is a 9 percent 
increase over the 2003 requested levels. Four new nanoscience 
research centers in DOE laboratories are included in this 
year's budget request, which would bring the total number of 
those nanocenters to five. The President's Council of Advisors 
for Science and Technology, PCAST, has recently begun a review 
of this important national program.
    Climate change research, another priority--last year the 
President created the climate change research initiative, 
designed to accelerate high priority research to support 
policymaking. The CCRI was combined with the existing U.S. 
global change research program to create the climate change 
science program, which is now an interagency effort involving 
12 Federal agencies. Funding for that combined program remains 
level, but within the program, funds identified for accelerated 
work for CCRI are increased to $182 million, as compared with 
$40 million in the previous year's request.

                           PREPARED STATEMENT

    Finally, math and science education, an important priority 
for this administration, is reflected in the budgets of the 
National Science Foundation, Department of Education, and the 
National Institute of Child Health and Human Development. 
Special emphasis is placed on the successful development and 
implementation of evidence-based educational programs and 
practices as called for in the No Child Left Behind Act of 
2002.
    I would like to thank you, Mr. Chairman and members of the 
committee, for your past and future support of my office, and 
for the Federal research and development enterprise in general. 
I look forward to answering any questions you may have.
    [The statement follows:]
              Prepared Statement of John H. Marburger, III
              fiscal year 2004 ostp and federal r&d budget
    Mr. Chairman and members of the committee, it's a pleasure to meet 
with you today to discuss the President's fiscal year 2004 request for 
the Office of Science and Technology Policy (OSTP) and the Federal 
research and development budget.
    As I testified last year, I am committed to maintaining a close and 
productive relationship with this Committee. I applaud your bipartisan 
and enduring support of our country's research and engineering 
enterprise, and look forward to continuing our relationship as we make 
important choices together to optimize the Federal R&D investment.
    The President's budget focuses on winning the war on terrorism, 
securing the homeland, and strengthening the economy. Considering the 
context of an uncertain economic environment and growing Federal 
deficit, any increase in discretionary spending is difficult to justify 
to the American people. However, the President's budget requests 
another record high level of funding for R&D: $123 billion or a 7 
percent increase over the 2003 request. Over $5.9 billion of the 
increase is in Department of Defense development activities, reflecting 
the President's commitment to bolster our national defense and homeland 
capabilities.
    This increase in R&D spending is evidence of the great importance 
the Administration places on science and technology in addressing our 
country's present and future challenges. The President's budget also 
continues to emphasize improved management and performance to maintain 
excellence and sustain our national leadership in science and 
technology.
    In my statement I will review the broad goals of the President's 
budget and provide detail on OSTP's budget and the Federal research 
priorities that cut across multiple agencies and research disciplines. 
My testimony includes comparisons to the President's fiscal year 2003 
request, since those numbers were the ones used as a basis during 
formulation of the fiscal year 2004 budget. I will also attempt to 
include comparisons with some of the top-level fiscal year 2003 numbers 
that have more recently become available.
              the president's fiscal year 2004 r&d budget
    Our President has a strong commitment to research and discovery in 
the national interest. Earlier this year, when we endured the tragic 
loss of the space shuttle Columbia, the President was unequivocal in 
his promise that, despite setbacks, the journey of discovery would go 
on. He said:

    ``This cause of exploration and discovery is not an option we 
choose; it is a desire written in the human heart. We are that part of 
creation which seeks to understand all creation.''

    The programs in the Federal R&D budget represent some extraordinary 
new vistas of science with the potential to revolutionize our 
understanding and our capabilities. We cannot fund everything we'd 
like, but we will fund those exciting and high priority initiatives 
that keep this dream of discovery alive, and we will set the stage for 
the next generation scientists and engineers to take up new challenges 
that we cannot even imagine.
    In preparing this budget, the Administration has taken advice from 
the numerous planning and advisory bodies that exist to guide science 
priorities. For example, the budget begins to respond to 
recommendations by the President's Council of Advisors on Science and 
Technology (PCAST) and others about needs in physical science and 
engineering. The budget also reflects an extensive process of 
consultation between the Federal agencies, OMB, and OSTP, to thoroughly 
understand agency programs and priorities, interagency collaborations, 
and directions for the future. The National Science and Technology 
Council (NSTC), which I will discuss later in my testimony, provided a 
valuable mechanism to facilitate this interagency coordination. This 
process resulted in guidance to agencies issued by OSTP and OMB last 
May, concerning their program planning, evaluation, and budget 
preparation, and culminating in the budget you see before you today.
    The result is a budget that includes a strong emphasis on basic 
research across the agencies. Basic research is the source of 
tomorrow's discoveries and new capabilities, and this long-term 
research will fuel further gains in economic productivity, quality of 
life, and national security. Included in the budget, and emphasized in 
my comments today, is the budget category Federal Science & Technology 
(FS&T). This category, introduced in response to a recommendation of 
the National Academy of Sciences, excludes most of the development 
activities in the Federal R&D budget, including Department of Defense 
development, thereby only highlighting those activities devoted 
specifically to the creation of new knowledge and technologies.
    The budget includes an increase in emphasis on the physical 
sciences. The physical sciences not only spur understanding of the 
universe, they are the theoretical foundation for a host of new and 
promising technologies. Physical science research also offers education 
and training opportunities vital for a technologically advanced 
society.
    The budget also highlights investments in important research 
conducted by multiple Federal agencies in a coordinated fashion. 
Increasingly, the cutting edge of research is not cleanly confined to a 
specific science discipline, but spans a variety of disciplines or 
applications. Well-managed interagency collaboration takes advantage of 
the vast pool of capabilities represented across the Federal Government 
while minimizing new organizational structures. The high-priority 
multi-agency R&D initiatives for fiscal year 2004 are: combating 
terrorism R&D, network and information technology, nanotechnology, 
research on molecular life processes, climate change research and 
technology and education research.
Office of Science and Technology Policy (OSTP)
    The Office of Science and Technology Policy has primary 
responsibility in the White House to coordinate interagency research 
initiatives. The fiscal year 2004 request for OSTP is $7,027,000. This 
figure includes funding not previously reflected in OSTP's budget for 
rent and security costs associated with our relocation from the 
Eisenhower Executive Office Building. It also includes increases 
associated with responsibilities this office has in the area of 
National Security Emergency Preparedness communications that have 
received new emphasis. Total new funding in these categories represents 
$1,542,000 of our fiscal year 2004 request. For purposes of comparison, 
if you back out the new funding not previously required, OSTP's fiscal 
year 2004 request would represent less than a 2.2 percent increase over 
fiscal year 2003 levels for the core OSTP mission.
                        agency budget highlights
National Science Foundation (NSF)
    The proposal would increase the overall NSF budget by $453 million, 
or about 9 percent relative to the fiscal year 2003 Presidential 
request, or 3 percent over the enacted fiscal year 2003 level.
  --The budget invests heavily in the physical sciences: NSF physical 
        science investments would increase by $100 million, or 13 
        percent, over the fiscal year 2003 request. Fundamental 
        discoveries in the physical sciences are needed to spur 
        progress in other areas, such as health research, energy, 
        agriculture and the environment.
  --The 2004 budget continues a multi-year effort to improve attraction 
        and retention of U.S. students into science and engineering 
        careers by increasing annual graduate student fellowship and 
        training stipends from $25,000 to $30,000 and increasing the 
        number of awards. Reducing the financial burden graduate 
        students face can have a significant impact on their choice of 
        science or engineering as a career.
  --The Major Research Equipment and Facility Construction program will 
        receive a 60 percent increase from the fiscal year 2003 request 
        to a total of $202 million in 2004. Simultaneously, NSF is 
        taking a close look at their investments and priorities in 
        research infrastructure, and has, for the first time, provided 
        the Congress with a rank ordering of its approved large 
        facility construction projects and a discussion of how these 
        projects were selected, approved and prioritized.
          national aeronautics and space administration (nasa)
    The President's request for NASA represents a total funding 
increase of 9 percent for R&D over the fiscal year 2003 request and 
nearly $9.2 billion for FS&T programs, a 5 percent increase over the 
fiscal year 2003 request and a 2 percent increase over the level 
enacted for fiscal year 2003.
  --The President's commitment to space exploration is evident in this 
        budget, which was conceived before the tragic loss of the 
        Columbia astronauts. Total funding for NASA is proposed to 
        increase 3.1 percent overall. The Shuttle budget, after taking 
        into account the transition to full cost accounting, receives 
        nearly a 5 percent increase over the fiscal year 2003 request.
  --Included in the $4 billion in space science programs are several 
        initiatives to increase the scientific and educational outcomes 
        of future planetary missions, such as a new $31 million 
        investment in optical communications technology and a $279 
        million investment in Project Prometheus, to include the 
        development of propulsion systems that will enable exploration 
        of our solar system's most distant planets.
Environmental Protection Agency (EPA)
    The budget provides $776 million in the FS&T budget for EPA, 
essentially maintaining funding at the level requested in the fiscal 
year 2003 Budget, a 3 percent decrease from the level enacted for 
fiscal year 2003.
  --The EPA budget supports significant efforts to continue to improve 
        the scientific base in support of policy and regulations 
        through: improvement in the use of science by the regional 
        offices; ongoing efforts to attract and maintain a high-
        quality, diverse scientific workforce; and assessments to 
        ensure the quality and consistency of science.
  --Responding to concerns about the adequacy of its science, EPA has 
        appointed an agency Science Advisor to improve environmental 
        science integration and coordination at EPA.
  --The President's Budget provides nearly a four-fold increase in 
        funding to improve the Integrated Risk Information System 
        (IRIS), a database which contains toxicity information of 
        chemicals. IRIS is used by other Federal agencies, States, and 
        international officials to help assess the potential health 
        risks of chemicals and to develop regulations.
                        interagency initiatives
    Beyond the individual agency initiatives, the President's budget 
outlines priority areas of research involving multiple agency 
participation. Last May, OMB Director Mitch Daniels and I sent out an 
fiscal year 2004 budget-planning memo to agencies to provide guidance 
and focus for these budget priorities. National R&D priorities set 
forth in the guidance memo include: R&D for Combating Terrorism, 
Networking and Information Technology, Nanotechnology, Climate Change, 
Molecular Life Processes and Education.
    A mechanism for coordinating interagency initiatives lies within 
the President's National Science and Technology Council (NSTC), and my 
office has responsibility for the day-to-day operations of the NSTC. 
This Cabinet-level Council is the principal means for the President to 
coordinate science, space, and technology, bringing together the 
diverse parts of the Federal research and development enterprise. The 
Council prepares research and development strategies that are 
coordinated across Federal agencies to form an investment package aimed 
at accomplishing multiple national goals. The following describe high 
priority interagency initiatives the NSTC helps to coordinate:
    Combating Terrorism.--Last month the Department of Homeland 
Security opened its doors for business. Standing up the new Department 
is a massive undertaking and one of the highest priorities of this 
Administration. The President has proposed $3.2 billion in research and 
development funding for homeland security and combating terrorism 
across the Federal Government. Over $900 million is requested for 
combating terrorism research and development in the new department, 
including $803 million in the S&T directorate. This investment will be 
focused on robust research, development, testing, evaluation and 
systems procurement to ensure both evolutionary and revolutionary 
capabilities.
    The National Science and Technology Council's Committee on Homeland 
and National Security will work with the Homeland Security Council, the 
National Security Council, the Office of Management and Budget, the 
Department of Homeland Security and other relevant departments and 
agencies to identify priorities for and facilitate planning of homeland 
and national security R&D. The coordinated Federal effort will 
emphasize:
  --Strategies to combat weapons of mass destruction, including 
        radiological and nuclear countermeasures and biological agent 
        detection, diagnostics, therapeutics, and forensics;
  --Information analysis;
  --Social, behavioral, and educational aspects of combating terrorism;
  --Border entry/exit technologies; and
  --Developing standards relevant to both homeland and national 
        security.
    Networking and Information Technology.--The President's 2004 budget 
provides $2.2 billion for the Networking and Information Technology R&D 
Program (NITRD). This is a 6 percent increase over the fiscal year 2003 
request. The largest increase above 2003 NITRD request level is 
proposed for the Department of Health and Human Services, which would 
increase by $67 million, or 18 percent. The increased life sciences 
budget reflects the growing importance of bioinformatics R&D--efforts 
at the intersection between biology and information technology--in 
furthering biomedical research. NSF maintains the largest share of 
NITRD program funding and the budget proposes a $45 million, or 7 
percent, increase over the fiscal year 2003 request.
    Agencies involved in developing or using high end computing are 
engaged in planning activities coordinated through the National Science 
and Technology Council's Committee on Technology. In 2004, NITRD 
research emphases include:
  --Network ``trust'' (security, reliability, and privacy);
  --High-assurance software and systems;
  --Micro- and embedded-sensor technologies;
  --Revolutionary architectures to reduce the cost, size, and power 
        requirement of high end computing platforms; and
  --Social and economic impacts of information technology.
    National Nanotechnology Initiative.--The President's 2004 budget 
provides $849 million for the multi-agency National Nanotechnology 
Initiative (NNI). This is a 9.8 percent increase over levels requested 
for 2003. The Office of Science at the Department of Energy almost 
triples its investment in new nanoscale science research centers, with 
a proposed increase of $63 million to begin design and construction on 
four new nano-science research centers, bringing the total number of 
funded nano-centers to five. NSF continues to have the largest share of 
Federal nanotechnology funding, reflecting the broad mission of NSF in 
supporting fundamental research across disciplines, and the budget for 
NIH nanotechnology activities is increased by almost 8 percent relative 
to the fiscal year 2003 request. Altogether, 10 Federal agencies 
cooperate in the nanotechnology initiative with activities coordinated 
through the National Science and Technology Council's Committee on 
Technology. The NNI strategy for 2004 involves further investment in 
fundamental research across the range of scientific and engineering 
disciplines through investments in investigator-led activities at 
colleges and universities, centers of excellence, and supporting 
infrastructure.
    Responding to a recent National Research Council recommendation, 
next month the President's Council of Advisors for Science and 
Technology (PCAST) will begin conducting an ongoing, external review of 
the NNI aimed at strengthening the program and helping to identify and 
measure progress toward strategic goals.
    Climate Change.--Last year, to advance climate change science 
objectives, President Bush created the Climate Change Research 
Initiative (CCRI). The CCRI was combined with the existing US Global 
Change Research Program (USGCRP) to create the Climate Change Science 
Program (CCSP), an interagency research effort involving 12 Federal 
agencies. While funding for the combined CCSP remains level with the 
fiscal year 2003 request, the funds identified for CCRI is increased to 
$182 million as compared with $40 million requested for fiscal year 
2003. The CCRI investment will develop resources to support policy 
making, provide computer resources for climate modeling for decision 
support studies, and enhance observations and data management for a 
climate observing system. The increase for CCRI is the result of a 
process that has focused on managing GCRP funding more effectively and 
refocusing some research toward CCRI goals. A draft strategic plan for 
the CCSP has been produced and vetted through the science community 
using a multi-day public workshop held in December 2002 and in an open 
comment period. The response was overwhelmingly in support of the new 
management approach to the Federal program on climate change. A final 
strategic plan, relying on the extensive analysis and commentary 
resulting from the workshop, will be produced this spring and will 
guide the future activities of the program.
    $40 million is identified for the National Climate Change 
Technology Initiative (NCCTI) Competitive Solicitation program--an 
innovative approach for funding technology research and development to 
reduce, avoid or sequester greenhouse gases. In 2004, government-wide 
spending on climate change technologies will be reviewed, and priority 
programs for emphasis in the NCCTI will be identified.
    Math and Science Education--No Child Left Behind.--The improvement 
of pre-K-12 math and science education remains a major Administration 
priority, with special emphasis on the successful development and 
implementation of evidence-based educational programs and practices, as 
called for in the No Child Left Behind Act of 2002. The President's 
2004 budget request includes support for two such programs involving 
the Federal research agencies: the Math and Science Partnership (MSP) 
Program and the Interagency Education Research Initiative (IERI). The 
MSP request for NSF is $200 million, and for the Department of 
Education is $12.5 million. The program funds new and ongoing 
partnerships between institutions of higher education and local school 
districts. This program also will fund teacher training summer 
institutes for more intense immersion into mathematics and science 
content areas.
    The funding request for the IERI remains level with the President's 
2003 budget request. The goal of the IERI is to improve pre-K-12 
student learning and achievement in reading, math and science by 
conducting research on the scaling of educational practices that have 
already demonstrated their effectiveness in studies conducted with a 
limited number of students or classrooms. Currently the NSF, the 
Department of Education, and the National Institute of Child Health and 
Human Development (NICHD) participate in IERI.
    Additionally, the 2004 budget includes a $10 million increase in 
research, development, and dissemination funding for the Department of 
Education's new ``Institute of Education Sciences''--from $175 to $185 
million.
    Recognizing the need for better coordination of educational 
activities between the Federal research agencies, the National Science 
and Technology Council's Committee on Science has formed a Subcommittee 
on Education. This subcommittee will advise on best practices and will 
develop strategies to move agency programs away from fragmentation and 
duplication of effort towards a coordinated, complimentary set of 
individual agency and interagency programs.
                  managing the federal research budget
    Equal in importance to the spending on the Federal research budget 
is the management of this investment. In addition to providing funding 
coordination, the NSTC will also be reviewing management aspects of 
research including:
  --Analysis and recommendations concerning the requirements for 
        Federal investment in major research facilities and 
        infrastructure, and the best management practices to determine 
        priorities and allocate funding; and
  --An investigation of the changing business model for research, and 
        recommendations for modernizing the management and funding of 
        Federal research programs in response to this changing research 
        environment.
    The fiscal year 2004 budget emphasizes increased return on 
investment by improvements in management, performance and results of 
the research programs. Working together and with the Federal research 
agencies, OMB and OSTP are developing, implementing, and continuing to 
improve investment criteria for research programs across the 
government. Explicit R&D investment criteria have been developed to 
improve R&D program management, better inform R&D program funding 
decisions, and ultimately increase public understanding of the possible 
benefits and effectiveness of the Federal investment in R&D. In 2004, 
all R&D program managers must demonstrate the extent to which their 
programs meet the following three tests:
  --Relevance.--R&D programs must be able to articulate why the 
        investment is important, relevant, and appropriate. This must 
        include complete planning with clear goals and priorities, 
        clearly articulated societal benefits, and the mechanisms used 
        for reviewing and determining the relevance of proposed and 
        existing programs.
  --Quality.--R&D programs must justify how funds will be allocated to 
        ensure quality. Agencies must maximize quality through clearly 
        stated, defensible methods for awarding a significant majority 
        of their funding. Programs must assess and report on the 
        quality of current and past R&D.
  --Performance.--R&D programs must be able to monitor and document how 
        well the investments are performing. This includes tracking and 
        reporting annually on objectives and milestones for relevant 
        programs, and defining appropriate measures of performance, 
        output, and outcome.
    As a result of implementing these criteria, and consistent with the 
Government Performance and Results Act, the Administration strives to 
ensure that every dollar is invested as effectively as possible. Based 
on lessons learned and other feedback, the Administration will continue 
to improve the R&D investment criteria and their implementation towards 
more effective management of the Federal R&D portfolio.
                               conclusion
    Mr. Chairman and members of the committee, I believe this is a good 
budget for science and technology. I hope I have conveyed to you the 
extent of this Administration's commitment to advancing science and 
technology in the Nation's interest. I look forward to our work 
together as we move towards implementing a national science and 
technology strategy that will draw from the best in industry, academia, 
the non-profit sector, and all levels of government. The programs that 
we discuss today will help us protect our citizens and our national 
interests, advance knowledge, promote education, and preserve the dream 
of exploration and discovery. I would be pleased to respond to 
questions about this budget.

    Senator Bond. Thank you very much, Dr. Marburger. That was 
excellent timing. You came out right on the money. Now we turn 
to Dr. Colwell. Welcome, Doctor.

                      STATEMENT OF RITA R. COLWELL

    Dr. Colwell. Chairman Bond, your consistent support and 
strong leadership has led to record increases for the 
Foundation's budget in the omnibus appropriations passed in 
February, and I speak for everyone at NSF when I say how 
grateful we are for your efforts. We thank you.
    Before I begin with a brief overview of this year's budget, 
I would like to first relate to you some actions we have taken 
in response to concerns that you raised last year. First, we 
provided a prioritized list of all major research, equipment, 
and facilities construction projects that have been approved by 
the National Science Board and it is included in our budget.
    Second, we've provided support to the National Academy of 
Sciences to assess setting priorities for major research 
equipment. We have hired a new deputy for our large facilities 
projects, Dr. Mark Coles. He will report to the chief financial 
officer, and will be a tremendous asset to NSF, and available 
for inquiry from you and your staff.
    We have an active facilities oversight and guidelines 
manual vetted with both the National Science Board and the 
community. New comments have been received and are being 
incorporated into the next version of the guide, scheduled for 
release May 31.
    We have a risk assessment guide for award oversight, vetted 
with the Science Board, drawn from other agencies' best 
practices, and we have taken the suggestions of the IG to 
heart, and we are incorporating more specific guidance to your 
staff.
    We began making site visits last year using this risk 
model, and we have begun training staff in its use and making 
continuous improvements as we go along.
    We have put in place procedures and guidelines to ensure 
the integrity of the taxpayer's money, attested to by the IG's 
clean audit opinion issued in January of this year, and my CFO 
has an active plan in place to close out the remaining audit 
recommendations for large facilities projects by September 30 
of this year, and I appreciate the effort that you and your 
staff have made on these issues, and I believe the results will 
be beneficial.
    The NSF budget proposal for 2004 leaves no doubt that the 
President embraces the conviction that the surest way to keep 
our Nation prosperous and secure is to keep it at the forefront 
of learning and discovery. Our highest priority is maintaining 
the quality of U.S. science and engineering, and the 2004 
budget includes $200 million for the Math and Science 
Partnership program, which is a centerpiece of the President's 
No Child Left Behind initiative.
    To attract more of the most promising U.S. students to 
science and engineering graduate programs we have proposed a 
stipend increase to $30,000, and we thank you for your support, 
because this builds on making available graduate study 
attractive and affordable to talented American students, and 
this year's budget also increases support for our STEP/
TechTalent program to improve the Nation's production of 
science and engineering majors.
    We are also requesting $16.2 million for the CyberCorps 
program to train future Federal employees in information 
assurance and computer security. We have initiated a 21st 
century workforce focus to attract U.S. students to science and 
engineering fields and to broaden participation. We are going 
to fund three new Science of Learning Centers--again, I thank 
you for your support--to investigate how people learn, 
capitalizing on recent progress in cognitive science, 
neuroscience, and information technology.
    We are also proposing a substantial increase in funding for 
the physical sciences, providing over $1 billion to sustain the 
vigorous research that has helped power advances in medicine, 
energy, agriculture, and understanding the environment, and I 
know you are very supportive of that.
    One hundred million dollars has been requested for 
biocomplexity in the environment, including support for 
microbial genome sequencing and the ecology of infectious 
diseases, which are also areas of vital importance to 
antiterrorism efforts, and an $89 million investment in the 
mathematical sciences and statistics priority area will improve 
our ability to handle the massive data sets produced by today's 
sensors and observation systems and to model and manage 
uncertainty.
    Building on previous investments in the social, behavioral 
and economic sciences, we are requesting $24 million to launch 
a human and social dynamics priority area that will investigate 
the impacts of change on our lives and the stability of our 
institutions. The largest dollar increase in NSF's 2004 budget 
is in tools. Our request of $1.34 billion will help meet the 
growing needs for small and mid-sized equipment and 
instrumentation as well as major facilities, as was enunciated 
by Senator Mikulski just a minute ago.
    Our investment record is excellent. NSF puts its money 
where it will do the most good. Ninety-five percent of our 
budget goes directly to research and education to keep the 
knowledge base active, the economy humming, and benefits to 
society flowing. In addition, every dollar invested in academic 
institutions also contributes to recruiting and training the 
next generation of researchers and to ensure a well-informed 
citizenry.
    Nevertheless, I have to point out, as our budget has 
expanded in recent years, so have our oversight obligations, 
yet NSF staffing levels have not changed in over a decade. We 
remain concerned that the Foundation has the human and capital 
resources necessary for responsible stewardship of our growing 
portfolio.

                           PREPARED STATEMENT

    Mr. Chairman, I ask for your support for our fiscal year 
2004 budget request, and I really want you to know how much the 
Foundation appreciates you and the committee's longstanding 
bipartisan support. I ask that my written testimony and a 
summary of the National Science Foundation's budget request be 
included for the record, and I will be very happy to answer any 
questions that you may have.
    [The statement follows:]
                 Prepared Statement of Rita R. Colwell
    Chairman Bond, Senator Mikulski and Members of the Committee, I am 
pleased to appear before you today. For more than 50 years, the 
National Science Foundation (NSF) has been a strong steward of 
America's science and engineering enterprise. Although NSF represents 
less than 4 percent of the total Federal budget for research and 
development, it accounts for one-fifth of all Federal support for basic 
research and 40 percent of support for research at academic 
institutions, excluding the life sciences. Despite its small size, NSF 
has an extraordinary impact on scientific and engineering knowledge and 
capacity.
    During NSF's five decades of leadership, groundbreaking advances in 
knowledge have reshaped society and enabled the United States to become 
the most productive Nation in history. The returns on NSF's strategic 
investments in science, engineering, and mathematics research and 
education have been enormous. Much of the sustained economic prosperity 
America has enjoyed over the past decade is the result of technological 
innovation--innovation made possible, in large part, by NSF support.
    In our 21st century world, knowledge is the currency of everyday 
life, and at the National Science Foundation we are in the knowledge 
business. Our investments are aimed at the frontiers of science and 
engineering research and education, where advances in fundamental 
knowledge drive innovation and progress.
    Today, our Nation faces significant challenges--in security, 
health, the economy, and the workforce. The surest way to keep our 
Nation prosperous and secure is to keep it at the forefront of learning 
and discovery. The NSF budget proposal for fiscal year 2004 aims to do 
just that, and I am very pleased to present it to you today.
    I'll begin with the big picture. This year the National Science 
Foundation is requesting $5.48 billion. That's an additional $453 
million, or 9 percent more than last year's request.
    This budget leaves no doubt that the President embraces NSF's 
vision and value. NSF-funded research and education will help us meet 
the economic and national security challenges facing us at home and 
abroad, now and in the future.
    NSF has been growing--surely and steadily. Our investments this 
year put us on the right path, and with the leadership and vision of 
this Committee, the NSF Authorization Act, signed by the President in 
December, will keep us moving in the right direction in the years to 
come.
    To promote the progress of science, NSF invests in three strategic 
areas.
    People.--Facilitating the creation of a diverse, internationally 
competitive, and globally engaged workforce of scientists and engineers 
and well-prepared citizens is NSF's first priority. To achieve this 
goal, NSF supports improvement efforts in formal and informal science, 
mathematics, engineering, and technology education. Across its science, 
mathematics, engineering, and technology research and education 
programs, NSF works to enhance the diversity of our science and 
engineering workforce. The Foundation provides support for almost 
200,000 people, including students, teachers, researchers, post-
doctorates, and trainees.
    Ideas.--Investments in ideas support cutting edge research and 
education that yield new and important discoveries and promote the 
development of new knowledge and techniques within and across 
traditional boundaries. These investments help maintain America's 
academic institutions at the forefront of science and engineering. The 
results of NSF-funded projects provide a rich foundation for broad and 
useful applications of knowledge and development of new technologies. 
Support for ideas also promotes the education and training of the next 
generation of scientists and engineers.
    Tools.--NSF investments provide state-of-the-art tools for research 
and education, including instrumentation and equipment, multi-user 
facilities, digital libraries, research resources, accelerators, 
telescopes, research vessels and aircraft, and earthquake simulators. 
These tools also include large surveys and databases as well as 
computation and computing infrastructure for all fields of science, 
engineering, and education. Support for these unique national 
facilities is essential to advancing U.S. research and education.
    Of course, People, Ideas and Tools work together to give us the 
best returns in discovery, learning and innovation.
    Before providing a few highlights of the budget, let me stress that 
the priority-setting process at NSF results from continual consultation 
with the research community. New programs are added or enhanced only 
after seeking the combined expertise and experience of the science and 
engineering community, the Director and Deputy, and the National 
Science Board.
    Programs are initiated or enlarged based on considerations of their 
intellectual merit, broader impacts of the research, the importance to 
science and engineering, balance across fields and disciplines, and 
synergy with research in other agencies and nations. NSF coordinates 
its research with our sister research agencies both informally--by 
program officers being actively informed of other agencies' programs--
and formally, through interagency agreements that spell out the various 
agency roles in research activities. Moreover, through our Committee of 
Visitors process there is continuous evaluation and feedback of 
information about how NSF programs are performing.
    Producing the finest scientists and engineers in the world and 
encouraging new ideas to strengthen U.S. leadership across the 
frontiers of discovery are NSF's principal goals. NSF puts its money 
where it counts--95 percent of our budget goes directly to the research 
and education that keep our knowledge base fresh, our economy humming 
and the benefits to society flowing.
    Each year, NSF funds about 33,000 proposals at the leading edge of 
research. And we support more than 200,000 students, teachers, and 
researchers.
    Investing in People is key to developing the Nation's full talent 
and maintaining the quality of our workforce. There is no better place 
to begin than with our children. We must ensure that every child can 
participate in the Nation's prosperity and contribute to its progress.
    The budget includes $200 million for the Math and Science 
Partnership program, a key component of the President's No Child Left 
Behind initiative. This is the third installment of a $1 billion, 5-
year investment to raise the performance of all U.S. students in 
mathematics and science. The program links local schools with colleges 
and universities to improve teacher performance and provide a 
challenging curriculum for every student. And it creates innovative 
ways to reach out to underserved students and schools.
    Our Nation's science and engineering workforce is the most 
productive in the world. To keep it that way, we have to attract more 
of the most promising students to graduate-level studies in science and 
engineering.
    We have been steadily increasing stipend levels from a low of 
$15,000 in 1999, and it's working. Applications for graduate 
fellowships increased by 19 percent between 2001 and 2002. This year, 
we are requesting an increase to $30,000. And, we will also increase 
the number of fellowships.
    Opportunities to advance knowledge have never been greater than 
they are today. NSF invests in emerging areas of research that hold 
exceptional potential to strengthen U.S. world leadership in areas of 
global economic and social importance. This year, we are requesting 
funding for six of these priority areas: biocomplexity, information 
technology, nanoscale science and engineering, mathematical sciences, 
human and social dynamics, and the 21st century workforce.
    The budget includes a $100 million request for research in 
Biocomplexity in the Environment. This investment will continue support 
for microbial genome sequencing and the ecology of infectious diseases, 
two areas that are of vital importance to the Nation's anti-terrorism 
efforts. Research that charts the interactions among physical, human, 
and other living systems, will improve our ability to understand and 
manage our environment. The development of new technologies and tools 
rounds out this investment.
    As the lead agency in two of the Administration's top interagency 
R&D efforts, NSF has provided an investment of $724 million in 
Networking and Information Technology Research and Development and $249 
million in the National Nanotechnology Initiative.
    Our priority area investment in Information Technology Research of 
$303 million will advance every field of science and add to our 
economic prospects. We propose to expand fundamental research in high-
end computation and large-scale networking. Other investments address 
the need for safe and dependable information systems for national 
security and consumer protection. To reap the educational benefits of 
the information revolution, we plan to focus on the use of cutting-edge 
IT research in the classroom.
    The emerging field of nanoscale science and engineering promises a 
revolution at least as far-reaching as the one we've witnessed in 
information, computer and communications technologies. The ability to 
manipulate and control matter at the atomic and molecular levels will 
open new possibilities in materials and manufacturing, medicine, 
environment and energy, and national security. As the lead agency in 
the National Nanotechnology Initiative, NSF is requesting $249 million 
to expand basic research on new materials, biological systems at the 
nanoscale, and quantum computing. We will address the need to build 
capacity through investments in centers, training programs, and 
equipment. Research on the social and educational impacts of 
nanotechnology can prepare us to make the best use of new applications.
    Mathematics is the lingua franca, or as I like to say, the 
Esperanto of science and engineering. It leads us to new and deeper 
insights in every discipline. We propose to invest $90 million in the 
Mathematical Sciences priority area to pursue fundamental research in 
the mathematical sciences and statistics, and programs that will bring 
cutting-edge mathematical and statistical techniques to all fields.
    This investment will improve our ability to handle the massive data 
sets produced by today's sensors and observation systems, and to model 
and manage uncertainty. We also propose to strengthen connections 
between research and education in the mathematical sciences.
    Building on previous investments in the social, behavioral, and 
economic sciences, NSF proposes to launch a Human and Social Dynamics 
priority area. An investment of $24 million will fund research and new 
techniques to deepen our understanding of the impacts of change on our 
lives and on our institutions. The request will help us build the 
large-scale databases and refined research methods needed for major 
progress in the social sciences.
    Research will improve our understanding of how people make 
decisions, take risks, and deal with uncertainty. We will also support 
studies of large-scale change, such as globalization, the evolution of 
society and its interaction with the environment, and the implications 
of culture for conflict and assimilation.
    The Nation needs both world-class scientists and engineers, and a 
workforce that has the scientific and technical skills needed to thrive 
in today's changing workplace.
    NSF is requesting $8.5 million to begin the development of a 
Workforce for the 21st Century priority area to address three critical 
national science and engineering workforce needs: preparing scientists 
and engineers capable of meeting the challenges of the 21st century; 
attracting more U.S. students to science and engineering fields; and 
broadening participation in science and engineering. We will fund 
Integrative Institutional Collaborations that bring together and 
integrate NSF educational activities that work--the Louis Stokes 
Alliances for Minority Participation (LSAMP) program, Graduate Teaching 
Fellowships in K-12 Education (GK-12), the Integrative Graduate 
Education Research Traineeships (IGERT) program, Research Experiences 
for Undergraduates (REU), and Centers of Research Excellence in Science 
and Technology (CREST) program, for example.
    We will expand research opportunities for students and faculty from 
high schools and from 2-year and 4-year colleges. Our investments will 
emphasize efforts to build stronger links between research and 
education at historically black colleges and universities and minority-
serving institutions.
    Every year it becomes more difficult to choose only a few NSF 
activities to highlight in the budget presentation. But they are all 
genuinely significant, and I want to make brief comments about each.
    Our Nation is facing new and difficult challenges in homeland 
security. The NSF budget includes investments that will help us meet 
growing security needs. I've already mentioned programs in microbial 
genome sequencing and the ecology of infectious diseases. The 
Scholarships for Service program will train students in information 
security and assurance, in exchange for service in Federal Government 
agencies. Vital research in the Critical Infrastructure Protection 
program is designed to pinpoint vulnerabilities and strengthen 
protection for the Nation's power grids, transportation networks, and 
water supply systems. A diverse portfolio of security-related 
information technology research rounds out the NSF contribution. Every 
one of these investments will have a big payoff.
    This year, the NSF budget places special emphasis on investments in 
the physical sciences. We propose a 12.7 percent increase that will 
bring total funding in areas such as physics, chemistry, mathematics, 
and materials research to over $1 billion. We need this investment to 
spur the fresh and vigorous research in these fields that has helped in 
the past to power advances in medicine, energy, agriculture, and the 
environment.
    As part of the President's multi-agency Climate Change Research 
Initiative, NSF will support focused research to reduce uncertainty in 
critical areas of climate change knowledge and provide timely 
information for policy decisions. We are requesting $4.5 million to 
establish 3 or more new centers to improve understanding of risk 
management, risk communication, and decision-making. These studies will 
complement NSF's ongoing programs in climate change science.
    We know that diversity gives strength to the fabric of our society. 
The NSF request places special emphasis on broadening participation in 
science and engineering. The Historically Black Colleges and 
Universities (HBCU) Undergraduate Program increases by 43 percent, the 
Louis Stokes Alliance for Minority Participation, which helps 
minorities toward undergraduate degrees in science and engineering, and 
the ADVANCE program, aimed at more diversity among successful 
scientists with family responsibilities, will both increase by 23 
percent, and finally, the Partnerships for Innovation program, which 
transfers knowledge from research and education into the creation of 
new wealth by strengthening local and regional economies, will double 
its budget to $10 million.
    We are requesting $105 million for the EPSCoR program to continue 
building the capacity of educational institutions so that they can 
participate more fully in NSF research activities.
    The Noyce Scholarships address the shortage of highly trained K-12 
teachers by providing scholarships to talented mathematics, science, 
and engineering students who wish to pursue teaching careers in 
elementary or secondary schools.
    This year, our budget provides $75 million to support ongoing 
research on the genomics of plants of major economic importance. This 
includes a program of Young Investigator Awards in Plant Genome 
Research.
    The Science, Technology, Engineering and Mathematics Talent 
Expansion Program, or STEP, provides grants to colleges and 
universities to establish programs to increase the number of 
undergraduate math and science majors. We are requesting $7 million for 
the program this year, an increase of $5 million, or 250 percent, over 
the request for fiscal year 2003.
    The National Science Foundation furthers its research efforts by 
entering into partnerships with other Federal agencies and regards 
these partnerships as a core strategy for enabling Foundation 
activities. As part of the Administration's multi-agency Climate Change 
Research Initiative, NSF will support research to reduce uncertainty in 
critical areas of climate change knowledge and provide timely 
information to facilitate policy decisions. The total fiscal year 2004 
investment for CCRI increases by $10.0 million to a total of $25.0 
million.
    Finally, the budget provides $20 million to fund three or more new 
Science of Learning Centers. These centers will build on advances in 
the social sciences, computer science, engineering, and neuroscience to 
investigate how people learn, how the brain stores information, and how 
best to use information technology to promote learning. The aim is to 
bring fresh knowledge to the design of learning environments.
    The most significant dollar increase in NSF's fiscal year 2004 
budget is in Tools, with a total investment of $1.34 billion, a $219 
million increase over last year's request. Rapidly changing technology 
and increasing demand for state-of-the-art tools have put tremendous 
strain on the Nation's laboratories and research facilities. We need to 
renew our science and engineering infrastructure across the board, 
large and small. For the first time, in order to help Congress better 
understand our future planning needs, our budget provides a 
prioritization of all ongoing and planned major facility construction 
approved by the National Science Board.
    NSF plans to invest in major research equipment and facilities 
construction projects over the next several years. One new start, ocean 
drilling, is planned for fiscal year 2005, with two new starts, Rare 
Symmetry Violating Processes (RSVP) and Ocean Observatories, for fiscal 
year 2006.
    I want to emphasize that the $220 million increase in Tools is 
distributed across all of NSF's programs. It includes a new $20 million 
CyberInfrastructure investment to bring next-generation computer and 
networking capabilities to researchers and educators nationwide. Other 
investments, in mid-sized and small equipment, for example, also 
receive a healthy portion of the increase.
    In making these critical investments, NSF continues to put a very 
strong emphasis on effective and efficient management. We are proud of 
our track record.
    Mr. Chairman and Members of the Committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest.
    I ask not only for your support for our fiscal year 2004 budget 
request, but also want you to know how much I appreciate the long-
standing bipartisan support of the committee for NSF. Mr. Chairman, I 
would ask to include a copy of NSF's budget summary as part of my 
testimony, and would be happy to answer any questions that you have.

    Senator Bond. Thank you very much, Dr. Colwell. We are 
excited about the tremendous things that are going on, and 
appreciate very much your comments and your testimony.
    Now I would like to turn to Dr. Warren Washington, who is 
Chair of the National Science Board.

                   STATEMENT OF WARREN M. WASHINGTON

    Dr. Washington. Chairman Bond, I appreciate the opportunity 
to testify before you as the Chair of the National Science 
Board. Our National Science Board approved and supports the 
National Science Foundation's budget submission for fiscal year 
2004. We fully support the Foundation's investment in six 
priority areas. The Board believes it is crucial to maintain a 
strong portfolio of investment in the core disciplines, and it 
is also crucial that as the Foundation's research portfolio 
increases the funds for award administration should be 
sufficient to maintain efficient and effective NSF management 
of the portfolio.
    The Board and the Director continue to work effectively 
together and the Board is fully engaged in its policy and 
oversight responsibilities. The Board establishes policies for 
the Foundation, approves budgets, major new programs, 
agreements, and awards. It also includes the oversight for the 
Foundation's administrative processes and systems.
    In November 2002, the Board approved the resolution on 
guidelines for setting priorities for major research 
facilities. A copy of that resolution with revised guidelines 
is attached to my written statement. The Board establishes 
priority order for the facility construction projects based 
upon set guidelines.
    Let me comment on some other Board actions. We are 
currently in the process of selecting an executive officer. Our 
intent is to complete the selection soon after our May board 
meeting, and after the executive officer has been selected I 
plan to address the other staffing issues.
    Senator Bond, at the previous hearing a year ago, you asked 
about openness. I am pleased to report that all board meetings, 
subcommittee and task force meetings, as well as the full board 
meetings are now open to the public, except for a very few 
portions that fall under the exceptions in the Sunshine Act. 
The new openness has been embraced by the board members and 
well received by the press and members of the public.
    The Foundation's 2003 appropriations act provided a 
separate budget of $3.5 million for Board operations and 
activities in this fiscal year, and the accompanying conference 
report requested budget justification materials in support of 
the Board's 2004 budget. We are allocating the first time 
appropriation for fiscal year 2003.
    On the matter of the fiscal year 2004 budget, the Board's 
first meeting since the appropriations bill was signed took 
place in early March. There was limited opportunity for members 
to discuss the full range of options in this legislation. 
However, it is my intent to prepare the budget justification 
materials for fiscal year 2004 as requested in the conference 
report. At our May meeting, I have scheduled time for thorough 
discussion of the issues, and I will inform you of our plans as 
soon as possible after that meeting.
    The Board is nearing the completion of two policy reports. 
Our Task Force on Science and Engineering Infrastructure has 
assessed the status, changing needs and strategies to ensure 
that the Nation will have science and engineering 
infrastructure needed, and this report will be released April 
9. The Board's Task Force on National Workforce Policies for 
Science and Engineering has been studying U.S. science and 
engineering workforce needs and our national policy for 
ensuring a skilled workforce in the future, and we anticipate 
that this will be available in a couple of months. Any comments 
that you have on that will be especially valuable.

                           PREPARED STATEMENT

    At this point, I would like to end my formal remarks, and I 
want to thank you for the opportunity to testify on budget 
issues and the Board's policy activities. I ask that my 
complete statement be included in the record. I am pleased to 
answer any questions. Thank you.
    Senator Bond. Thank you very much, Dr. Washington. And of 
course, we will have your complete statement for the record.
    [The statement follows:]
               Prepared Statement of Warren M. Washington
    Chairman Bond, Senator Mikulski, and Members of the Committee, I 
appreciate the opportunity to testify before you as Chair of the 
National Science Board. I am Warren Washington, Senior Scientist and 
Section Head of the Climate Change Research Section at the National 
Center for Atmospheric Research.
    On behalf of the National Science Board, I thank the Committee for 
its long-term commitment to a broad portfolio of investments in 
science, mathematics, engineering, and technology research and 
education. These investments are important components of our Nation's 
security and economic strength and the well being of all Americans.
    For more than 50 years, the National Science Foundation has been a 
major contributor to innovative science and engineering research and 
education. The Congress recognized these valuable contributions through 
the passage of the 5-year reauthorization bill last year, with steady 
and substantial increases in authorized budgets for the agency. This 
recognition is greatly appreciated.
    The National Science Board approved and supports the National 
Science Foundation's budget submission for fiscal year 2004. We assure 
you that the $5.48 billion will be well spent. We fully support the 
Foundation's investment in the six priority areas of biocomplexity, 
information technology, nanoscale science and engineering, mathematical 
sciences, human and social dynamics, and the 21st century workforce. 
These areas hold exceptional promise for new discoveries, educational 
opportunities, and practical applications.
    The Board also believes it is crucial to maintain a strong 
portfolio of investments in the core disciplines. The increased funds 
received for fiscal year 2003 will strengthen the core research and 
education programs. The Foundation's fiscal year 2004 budget request 
recognizes the need to increase funding to the physical sciences and 
includes a 12.7 percent increase for physics, chemistry, mathematics, 
and materials research.
    It is crucial that, as the Foundation's research portfolio 
increases, the funds for award administration increase sufficiently to 
maintain effective and efficient NSF management of the portfolio.
    Since 1950, the partnership explicitly spelled out in the founding 
documents between the National Science Board and the Foundation's 
Director has worked extremely well, and the Nation's science and 
engineering research and education have flourished. Although recent 
legislation has altered some administrative aspects of our partnership, 
I can assure you that we continue to work together effectively and that 
the Board remains fully engaged in its policy-making and oversight 
responsibilities for the agency. The full Board sets Foundation policy 
after detailed consideration of recommendations made by its committees. 
These standing bodies deliberate with great thoroughness and 
thoughtfulness about the numerous programmatic and managerial issues 
facing the agency.
  --Our Committee on Programs and Plans is responsible for program 
        initiatives and major new projects and facilities, proposed 
        awards, and major program implementation issues (in all fields 
        except those pertaining to education and human resources).
  --Our Education and Human Resources Committee addresses matters 
        dealing with education and training and the technical 
        workforce.
  --Our Audit and Oversight Committee is responsible for administrative 
        processes and systems and also serves as the supervisor of the 
        Inspector General.
  --Our Committee on Strategy and Budget examines strategic budget 
        matters and identifies long-term issues critical to the 
        Foundation's future.
    This last committee, the Committee on Strategy and Budget, was 
established in May 2001 to strengthen the Board's role in the 
Foundation's strategic budget process. The Committee identifies long-
term issues that are critical to the Foundation's future and analyzes 
strategic and operating budgets to ensure progress toward strategic 
directions set by the Board. The Committee has worked with other Board 
members and Foundation staff on strategic issues such as management of 
the Major Research Equipment and Facilities Construction (MREFC) 
Account, support for the core disciplines, and the size and duration of 
graduate student and postdoctoral stipends.
    When I appeared before this Committee a year ago, Committee members 
expressed concern about the Board's involvement in setting priorities 
for funding projects through the MREFC Account. I would like to bring 
you up to date on that issue while illustrating the effectiveness of 
the Committee on Strategy and Budget.
    First, let me state that the Board continues to approve each 
project to be funded from the MREFC Account before the funds are 
obligated. Our Committee on Programs and Plans thoroughly reviews any 
proposed MREFC funding and brings recommendations to the full Board. 
There is ample opportunity for Board members to raise concerns before a 
vote is taken.
    Throughout 2002, the Committee on Strategy and Budget discussed how 
best to accommodate within future budgets the initiation of new major 
research facilities that the community and Foundation identified as 
important to the advancement of science and engineering. In August the 
Committee, in collaboration with the Committee on Programs and Plans, 
set up a joint working group to determine whether changes to existing 
Board guidance on priority setting might be appropriate. Policy options 
developed by the group were discussed in October 2002 by the Board's 
Committee on Strategy and Budget and Committee on Programs and Plans.
    In November 2002, the two committees brought a proposed resolution 
to the Board, the Resolution on Guidelines for Setting Priority for 
Major Research Facilities (NSB-02-189), and it was approved by the full 
Board. (A copy of the resolution with revised guidelines is attached.) 
We are working closely with Foundation management as the Large Facility 
Projects Management and Oversight Plan is implemented. We are pleased 
to see that a Deputy Director for Large Facility Projects has been 
hired, and we expect that he will report to the Board on a regular 
basis.
    The Board's Major Research Facilities guidelines state that when 
considering a project for approval, the Board will review the need for 
such a facility, the research that will be enabled, readiness of plans 
for construction and operation, construction budget estimates, and 
operations budget estimates. The Board then establishes a priority 
order for facility construction projects, based on these guidelines:
  --Highest priority is given to projects already under construction, 
        as long as progress is appropriate.
  --New candidate projects are considered from the point of view of 
        broadly serving the many disciplines supported by the 
        Foundation.
  --Multiple projects for a single discipline, or for closely related 
        disciplines, are ordered based on a judgment of the 
        contribution that they will make toward the advancement of 
        research in those related fields. Community judgment is 
        considered.
  --Projects are authorized close to the time that funding requests are 
        expected to be made.
  --International and interagency commitments are considered in setting 
        priorities among projects.
    Let me comment on some other Board actions. We are currently in the 
process of selecting an Executive Officer. After conducting a national 
search for candidates, a short list has been developed for further 
consideration. References are being checked in preparation for 
interviews. Our intent is to complete the selection process soon after 
our May Board meeting. Once an Executive Officer has been selected, I 
plan to address other staffing issues so that we may be fully 
responsive to the interests of Congress in exercising our policy-making 
responsibilities.
    The NSF Authorization Act expanded the Board's activities covered 
by the Government in the Sunshine Act. I know that the Committee has 
concerns in this area, and I am pleased to report that all Board 
committee, subcommittee, and task force meetings, as well as the full 
Board meetings, are now open to the public except for those very few 
portions that fall under the exceptions stated in the Sunshine Act. 
These procedures were in effect for our February and March meetings. 
While we continue to refine our processes, the new openness of our 
deliberations has been embraced by Board members and well received by 
the press and other members of the public.
    The Foundation's fiscal year 2003 Appropriations Act provided a 
separate budget of $3.5 million for Board operations and activities in 
this fiscal year, and the accompanying conference report requested 
budget justification materials in support of the National Science 
Board's fiscal year 2004 funding requirements. I want to take this 
opportunity to report our progress on these matters.
    We are working through the many details related to allocating this 
first-time appropriation for fiscal year 2003. We have prepared 
operating plans that enable the Board to allocate its expenses for the 
current fiscal year against that appropriation.
    On the matter of a fiscal year 2004 budget, the Board's first 
meeting since the appropriation bill was signed took place in early 
March, only a short time after the bill was signed. Therefore, there 
was limited opportunity for members to discuss the full range of 
options this legislation presents for fiscal year 2004. However, it is 
my intent to prepare budget justification materials for fiscal year 
2004 as requested in the conference report. Our next meeting is 
scheduled for May, and I have scheduled time for a thorough and 
thoughtful discussion of those issues with the full Board. On behalf of 
the Board, I appreciate your understanding our interest in taking the 
time necessary to properly address these important questions. I will 
inform you of our plans as soon as possible following the meeting.
    Consistent with our role as national policy adviser, the Board is 
nearing completion of two policy reports. Our Task Force on Science and 
Engineering Infrastructure has assessed the status, changing needs, and 
strategies to ensure that the Nation will have the science and 
engineering infrastructure to enable new discoveries in the future. The 
Board's final report with policy recommendations is being prepared for 
release on April 9. We made an extensive effort to seek public comment 
on the draft report, and we will conduct a broad-based outreach effort 
to engage a wide range of stakeholders in follow-up on those critical 
recommendations.
    Another Board task force, the Task Force on National Workforce 
Policies for Science and Engineering, has been working diligently on 
U.S. science and engineering workforce needs and national policy 
options for ensuring a skilled workforce in the future. We anticipate 
that the draft report will be available for public comment in a couple 
of months. Your views would be especially valuable to us.
    One final comment concerning Board policy reports: we want these 
documents to have the maximum possible impact on national science and 
engineering research and education issues. To that end, we are 
examining new and better ways to engage members of Congress, 
Administration officials, and the community in a continuing dialog on 
these critical topics. I will keep you fully informed as these efforts 
evolve.
    Mr. Chairman, at this point I would like to end my formal remarks. 
I thank the Committee for its strong and sustained support of the 
science and engineering enterprise, especially the National Science 
Foundation. I thank you for the opportunity to testify on Federal 
budget issues and recent administrative changes as well as the Board's 
national policy activities. I would be pleased to answer any questions 
you may have or to provide additional information for the record. Thank 
you, Mr. Chairman.
    Attachments: NSB-02-189 and NSB-02-191.
                                 ______
                                 
                               nsb-02-189
                           november 21, 2002
                               resolution
                         national science board
Guidelines for Setting Priority for Major Research Facilities
    The Committee on Strategy and Budget and the Committee on Programs 
and Plans recommend that the National Science Board approve revision to 
the Board's November 15, 2001 ``Guidelines for Setting Priority for 
Major Research Facilities'' in accordance with the following 
resolution:
    RESOLVED, that the National Science Board approves the attached 
revision to NSB-01-204, entitled ``Guidelines for Setting Priority for 
Major Research Facilities,'' and dated November 15, 2001, as 
recommended by the Committee on Strategy and Budget and the Committee 
on Programs and Plans.
                                       Maxine Savitz Chair,
                                  Committee on Strategy and Budget.
                                      Anita K. Jones Chair,
                                   Committee on Programs and Plans.
                                 ______
                                 
                               nsb-02-191
                 revised and adopted november 21, 2002
                         national science board
Guidelines for Setting Priority for Major Research Facilities
    The advancement of research and education in all fields of science 
and engineering depends--at some times--on equipment that permits 
observation and experimentation. Therefore, the National Science 
Foundation (NSF) funds such equipment. It also funds the research 
necessary to advance the engineering of next generation instruments 
that may enable entirely new and improved modalities of observation and 
experimentation.
    Some of the equipment that enables the advancement of research is 
large, complex, and costly. The term facility is used to describe such 
equipment, because typically the equipment requires special sites or 
buildings to house it and a dedicated staff to effectively maintain and 
use the equipment. Multiple experimental researchers working in related 
disciplines share the use of such large facilities.
    From time to time, a consensus arises within a research community 
that a particular new facility is required to advance the state of 
knowledge in the field. Such a consensus matures through broad 
community discussion. Through that discussion, a consortium sometimes 
arises from the community to take the responsibility to build and 
operate the facility for the good of the entire community. In all cases 
there are clearly stated research questions that only the unique, 
envisioned facility could help answer.
    The National Science Board approves all large facility projects, as 
directed by the NSF Act of 1950 and based on the Board's revised 
delegation of authority to the Director (NSB-99-198, Appendix B, 
``Delegation of Authority,'' 335 NSB Meeting, November 18, 1999). When 
considering a facility project for approval, the Board reviews the need 
for such a facility, the research that will be enabled, readiness of 
plans for construction and operation, construction budget estimates, 
and operations budget estimates. Construction of many facilities is 
funded through the NSF Major Research Equipment and Facilities 
Construction account.
    Due to cost, not all facilities can be built at the time that their 
need is determined and plans are in order for construction. 
Consequently, the Board will order facility construction projects with 
the intent that funding be made available to projects in this rank 
order. If it becomes necessary, the Board will reconsider both 
individual project approval and project priority.
    The guidelines observed by the Board in approving and prioritizing 
such major facility projects and in approving the NSF budget submission 
are:
  --Once construction for an approved and prioritized project 
        commences, highest priority is given to moving that project 
        forward through multiple years of construction in a cost-
        effective way, as determined by sound engineering and as long 
        as progress is appropriate. It is most cost-effective to 
        complete initiated projects in a timely way, rather than to 
        commence new projects at the cost of stretching out in-progress 
        construction.
  --New candidate projects will be considered from the point of view of 
        broadly serving the many disciplines supported by NSF.
  --Multiple projects for a single discipline, or for closely related 
        disciplines, will be ordered based on a judgment of the 
        contribution that they will make toward the advancement of 
        research in those related fields. Community judgment on this 
        matter is considered.
  --Projects will be authorized close to the time that funding requests 
        are expected to be made.
  --International and interagency commitments are considered in setting 
        priorities among projects.
    The above are guidelines. Each facility consideration involves many 
complex issues. The Board will consider all relevant matters, and could 
deviate from these guidelines, given sound reasons to do so.

    Senator Bond. I do not mean to push you, but if you are 
going to be looking at the full recommendation some time in 
May, I certainly hope it is earlier May rather than later May, 
because we are going to be putting our bill together in May, 
and the sooner you can get it to us, the more likely we are to 
be able to take into account your views, so timeliness is key. 
We would very much appreciate having your views and your 
consideration at the earliest possible time.
    Now we turn to Dr. Boesz, the Inspector General for the 
National Science Foundation. Welcome, Dr. Boesz.

                    STATEMENT OF CHRISTINE C. BOESZ

    Dr. Boesz. Chairman Bond, thank you. I appreciate the 
opportunity once again to appear before you. NSF's work over 
the past 53 years has had an extraordinary impact on scientific 
and engineering knowledge. However, as the nature of the 
scientific enterprise constantly changes, NSF is continuously 
faced with new challenges for maintaining its leadership 
position.
    My office has and will continue to work closely with 
management to identify and address issues that are important to 
the success of the National Science Board and the NSF. Today, I 
would like to highlight four of the top management challenges 
facing the agency and tell you why I believe they are 
significant.
    The first area is the management of large infrastructure 
projects. Over the past decade, NSF has increased its 
investments in such tools. Overseeing the construction and 
management of large facility projects and programs requires 
disciplined project management, while working hand-in-hand with 
scientists and engineers. As you indicated, my office has 
conducted two audits focusing on projects funded through NSF's 
major research, equipment, and facilities construction 
appropriation account. As of today, approximately half of our 
recommendations have been implemented. However, key 
recommendations essential for successful oversight and 
management remain unresolved.
    First, a large component of NSF's corrective action plan is 
the development of a facilities management and oversight guide. 
While substantial effort has gone into this guide, it is still 
in draft form.
    Secondly, NSF has recently completed a lengthy search for a 
new deputy for large facility projects, and as Dr. Colwell has 
indicated, the new deputy will assume his duties in June. We 
are hopeful that NSF will now be able to complete the guide and 
resolve other outstanding issues in this area. Another of NSF's 
continuing management challenges relates to the operation and 
management of the United States Antarctic program.
    As you know, conditions in Antarctica are remote and harsh, 
so one of the challenges for NSF management is to ensure the 
safety and health of Antarctic personnel and researchers. Last 
month, my office issued a report on health and safety in 
Antarctic operations. We recommended that NSF address aging 
facilities and infrastructure. Specifically, we recommended 
that NSF initiate capital asset management planning and 
separate line-item budgeting processes.
    Although NSF prefers the current practice of using research 
funds in a flexible manner, I believe a long-term, line-item 
approach would better identify resources necessary to assure 
continued safe operations.
    The third area is award administration. NSF's challenge is 
in administering and monitoring its awards once they are made. 
For the past 2 years, NSF award management has led to a 
reportable condition in its financial statements audit report. 
Consequently, the auditors recommend that NSF implement a 
comprehensive risk-based post-award monitoring program. One of 
the biggest challenges that NSF faces in addressing this is the 
increased strain it places on resources, including human 
capital and support services.
    Like many Federal agencies, NSF is facing human capital 
needs and challenges. Large numbers of permanent staff are 
eligible for retirement, and staffing has remained relatively 
flat, despite healthy budget increases. The continued reliance 
on a growing number of temporary staff places additional 
burdens on NSF, particularly its Office of Human Resource 
Management. NSF has contracted with a consultant to perform a 
comprehensive $14.8 million business analysis of its 
operations. This does include a human capital component.
    The first draft of the plan is due from the contractor in 
early 2004. The final plan at the end of 2005, so the fourth 
challenge focuses on human capital issues that demand urgent 
attention in the interim. NSF should develop a short-term plan 
that identifies its immediate human capital needs and the 
specific resources needed to support them such as training, 
space and equipment.

                           PREPARED STATEMENT

    It is clear, however, that NSF needs resources to support 
its infrastructure as its budget expands and the workload 
increases.
    Chairman Bond, this concludes my oral statement. I ask that 
my complete written statement be included for the record. I 
would be happy to answer any questions that you have. Thank 
you.
    [The statement follows:]
                Prepared Statement of Christine C. Boesz
    Chairman Bond, Senator Mikulski, and distinguished members of the 
Subcommittee, I am Dr. Christine Boesz, Inspector General at the 
National Science Foundation (NSF). I appreciate the opportunity, once 
again, to appear before you today as you consider NSF's fiscal year 
2004 budget request. NSF's work over the past 53 years has had an 
extraordinary impact on scientific and engineering knowledge, laying 
the groundwork for technological advances that have shaped our society 
and fostered the progress needed to secure the Nation's future. 
Throughout, NSF has maintained a high level of innovation and 
dedication to American leadership in the discovery and development of 
new technologies across the frontiers of science and engineering.
    As the nature of the scientific enterprise is constantly changing, 
however, NSF is continuously faced with new challenges to maintaining 
its leadership position. My office has and will continue to work 
closely with NSF management to identify and address issues that are 
important to the success of the National Science Board and NSF. Each 
year, my office focuses on those issues that pose the greatest 
challenge for NSF management. These management challenges are developed 
based on our ongoing work with and knowledge of NSF's operations and 
programs. Today I would like to highlight four of these challenges and 
tell you why we believe they are significant.
              management of large infrastructure projects
    For the past 3 years, we have considered management of large 
facility and infrastructure projects to be one of NSF's top management 
challenges.\1\ Over the past decade, NSF has increased its investments 
in large infrastructure projects such as accelerators, telescopes, 
research vessels and aircraft, supercomputers, digital libraries, and 
earthquake simulators. Many of these projects are large in scale, 
require complex instrumentation, and involve partnerships with other 
Federal agencies, international science organizations, and foreign 
governments. Some, such as the new South Pole Station, present 
additional challenges because they are located in harsh and remote 
environments.
---------------------------------------------------------------------------
    \1\ Memorandum from Christine C. Boesz, Inspector General, National 
Science Foundation, to Warren Washington, Chairman, National Science 
Board, and Rita R. Colwell, Director, National Science Foundation (Dec. 
23, 2002) [hereinafter 2002 Management Challenges]; Memorandum from 
Christine C. Boesz, Inspector General, National Science Foundation, to 
Eamon M. Kelly, Chairman, National Science Board, and Rita R. Colwell, 
Director, National Science Foundation (Jan. 30, 2002) [hereinafter 2001 
Management Challenges]; Letter from Christine C. Boesz, Inspector 
General, National Science Foundation, to Senator Fred Thompson, 
Chairman, Senate Committee on Governmental Affairs (Nov. 30, 2000) 
[hereinafter 2000 Management Challenges].
---------------------------------------------------------------------------
    The management of these awards is inherently different from the 
bulk of awards that NSF makes. The majority of NSF awards are made to 
single investigators for individual research projects. In undertaking 
these ``idea'' projects, NSF researchers need to be given the freedom 
and autonomy to allow their research to evolve and move in new 
directions. In large facility and infrastructure projects, however, 
that same degree of freedom may sometimes be at odds with cost and 
schedule requirements. While overseeing the construction and management 
of these large facility projects and programs must always be sensitive 
to the scientific endeavor, it also requires a different management 
approach. It requires disciplined project management including close 
attention to meeting deadlines and budgets, and working hand-in-hand 
with scientists, engineers, project managers, and financial analysts. 
Furthermore, although NSF does not directly operate or manage these 
facilities, it is NSF that is ultimately responsible and accountable 
for their success. Consequently, it is vital that NSF exercise proper 
stewardship over the public funds invested in these large projects.
    In December 2000, my office issued an audit of one of these large 
facilities, the Gemini Project, and made several recommendations to NSF 
management.\2\ Primarily, our recommendations were aimed at increasing 
NSF's level of oversight of these projects with particular attention on 
updating and developing policies and procedures to assist NSF managers 
in project administration. In response to our report, NSF developed, 
and my office approved, a corrective action plan designed to address 
our recommendations. The final milestone in the corrective action plan, 
by which time NSF expected to fully address the report's 
recommendations and implement new policies and procedures, was December 
2001.
---------------------------------------------------------------------------
    \2\ Office of Inspector General, National Science Foundation, Audit 
of the Financial Management of the Gemini Project, Report No. 01-2001 
(Dec. 15, 2000).
---------------------------------------------------------------------------
    Subsequent to issuing this audit report and at the request of this 
Subcommittee, my office conducted another audit focusing on all 
projects that NSF has funded through the recently renamed Major 
Research Equipment and Facilities Construction appropriation 
account.\3\ We reported that certain practices discovered during our 
first audit have also occurred in other large projects, reinforcing the 
need for increased oversight by NSF management. NSF responded to our 
report by stating its intent to combine management improvements 
recommended by this audit with its efforts to respond to our previous 
Gemini audit.
---------------------------------------------------------------------------
    \3\ Office of Inspector General, National Science Foundation, Audit 
of Funding for Major Research Equipment and Facilities, Report No. 02-
2007 (May 1, 2002).
---------------------------------------------------------------------------
    As we will be reporting in our semiannual report to the Congress 
for the 6-month period ending March 31, 2003, NSF has taken steps to 
address approximately half of the report recommendations. However, key 
recommendations from both of these reports on developing new project 
and financial management policies and procedures remain unresolved by 
NSF management.
    The unifying feature of NSF's corrective action plan was the 
development of a Facilities Management and Oversight Plan.\4\ NSF staff 
has devoted substantial time and effort to develop this Plan. The Plan 
has four major goals: (1) to address organizational needs within NSF to 
effectively manage large facility projects; (2) to implement guidelines 
and procedures for all aspects of facilities planning, management, and 
oversight; (3) to improve the process for reviewing and approving large 
facility projects; and (4) to properly oversee facility projects to 
ensure their success. A large component of meeting these goals, 
especially the second and fourth, is the development of a Facilities 
Management and Oversight Guide, which is still in draft form.
---------------------------------------------------------------------------
    \4\ National Science Foundation, Large Facility Projects Management 
& Oversight Plan NSB-01-153 (Sept. 2001).
---------------------------------------------------------------------------
    We have been pleased to provide NSF with comments on various 
iterations of the Guide. Most recently, we reviewed and provided 
feedback on the November 8, 2002 draft. As we expressed to NSF, and 
will report in our upcoming semiannual report, our primary concerns 
with the Guide are (1) that its focus is too high level to provide NSF 
staff with the practical guidance necessary to effectively manage this 
complex portion of NSF's portfolio and (2) that it does not yet address 
recording and tracking the full cost of these facilities within NSF's 
financial system. Among the unresolved issues that we hope to see 
addressed in the final version of the Guide are the authority of the 
new Deputy for Large Facility Projects and his Project Advisory Teams, 
and the level of responsibility and autonomy of the individual program 
officers managing these projects. The Guide lays out general 
requirements that will need to be fleshed out in order to implement a 
successful management program. It also needs to address contingency 
issues, such as those arising with international partnerships, in more 
detail.
    It has been over 2 years since our first audit report recommending 
improvements in NSF's management of large facility and infrastructure 
projects. Because of increased funding in this area, this issue needs 
to become one of greater urgency for NSF management. Some of this delay 
may have been due to the lengthy search for the new Deputy for Large 
Facility Projects. NSF announced last month that it has filled this 
position and the new Deputy will assume his duties on June 9, 2003. We 
are hopeful, with the new Deputy in place, NSF will be able to focus on 
the corrective actions and provide the resources necessary to fully 
implement the Facilities Management and Oversight Plan in order to 
resolve the outstanding issues in these two audits.
                   antarctic infrastructure planning
    Another of NSF's continuing management challenges relates to the 
operation and management of the United States Antarctic Program 
(USAP).\5\ The USAP is the United States' national program for 
scientific research and geopolitical presence in Antarctica, the 
world's seventh and southernmost continent. Conditions in the Antarctic 
are remote and harsh. Temperatures at the USAP's three year-round 
research stations range from an average high of 2 degrees Centigrade at 
Palmer Station to an average low of minus 28 degrees Centigrade at 
South Pole Station. These conditions require much more support 
resources from NSF management than is required with other NSF-funded 
programs. As stated in NSF's fiscal year 2004 budget request, ``[a]ll 
life support is provided by NSF, including facilities infrastructure, 
communications, utilities (water and power), logistics to, from, and 
within Antarctica and all related infrastructure--aircraft, runways, 
communications, passenger movement, baggage handling.''\6\ 
Consequently, one of the critical challenges for NSF management is to 
ensure the safety and health of USAP personnel and researchers.
---------------------------------------------------------------------------
    \5\ 2002 Management Challenges, 2001 Management Challenges, and 
2000 Management Challenges, supra note 1.
    \6\ National Science Foundation Fiscal Year 2004 Budget Request to 
Congress.
---------------------------------------------------------------------------
    Last month, my office issued a report on health and safety in the 
USAP.\7\ We were pleased to report that the programs put in place and 
managed by NSF's USAP logistics contractor do protect the overall 
health and safety of the USAP participants. However, we did report on 
occupational health and safety issues related to aging facilities and 
infrastructure in Antarctica. They need to be addressed by NSF 
management through a capital asset management planning and budgeting 
process. This is an issue that has also been raised to NSF management 
by the Office of Polar Programs' Committee of Visitors.\8\
---------------------------------------------------------------------------
    \7\ Office of Inspector General, National Science Foundation, Audit 
of the Occupational Health & Safety and Medical Programs In the United 
States Antarctic Program, Report No. 03-2003 (Mar. 17, 2003).
    \8\ Committee of Visitors Report on the Polar Research Support 
Section for the review period 1998, 1999, and 2000.
---------------------------------------------------------------------------
    The Antarctic facilities are different from other large facilities 
funded by NSF in that they are critical to the safety and health of 
researchers and their support personnel. Ongoing maintenance and 
upgrading of these facilities are necessary to prevent health and 
safety crises and to protect the personnel stationed in this harsh 
environment. We are pleased to see that NSF, in its fiscal year 2004 
budget request, is recognizing the need to plan for these crucial 
infrastructure needs. We are still concerned, however, over the funding 
of and planning for these projects. We have recommended that NSF 
develop life cycle planning of these USAP assets to serve as a basis 
for a capital asset management plan. In addition, to provide dedicated 
funding for these projects that does not compete with day-to-day USAP 
operations or scientific research, we recommended that NSF establish a 
separate line item within its budget for funding this plan. NSF prefers 
the current practice of using research funds in a flexible manner. I 
believe a long-term, line-item approach would more clearly identify 
resources necessary to assure continued safe operations.
                          award administration
    A third ongoing management challenge to NSF is the administration 
of research and education grants and cooperative agreements.\9\ In a 
given year, NSF spends roughly ninety percent of its appropriated funds 
on awards for research and education activities. NSF recently reported 
that it received more than 35,000 proposals in fiscal year 2002 and 
made more than 10,400 awards to about 1,800 institutions.\10\ This was 
accomplished with a staffing level that has remained relatively flat 
during the past decade, even in the face of large budget increases.
---------------------------------------------------------------------------
    \9\ 2002 Management Challenges, 2001 Management Challenges, 2000 
Management Challenges, supra note 1.
    \10\ National Science Foundation, fiscal year 2002 Management and 
Performance Highlights 5 (Feb. 2003).
---------------------------------------------------------------------------
    NSF is under pressure to process increasing numbers of proposals 
and to make awards. Many of these proposals are also more complex. This 
increase is leading to a resource drain. Because NSF's proposal 
processing system is not yet entirely electronic, incoming proposals 
need to be printed for distribution during the proposal review process. 
During January and February alone of this year, NSF received over 
14,000 proposals, representing forty percent of the normal 12-month 
total. The enormous volume of proposals has led to a backlog in 
printing. Resources to develop and implement a fully electronic system 
are needed to meet the increasing number and complexity of proposals.
    An even more important challenge for NSF is the way in which it 
administers and monitors these awards. Administering the public funds 
that are entrusted to it is an inherent function of any government 
entity. Federal agencies are responsible for monitoring the awards that 
they fund to provide reasonable assurances that (1) adequate progress 
is being made toward achieving the project's goals, objectives, and 
targets; (2) Federal funds are being expended appropriately; and (3) 
Federal funds are being used responsibly. This is the essence of 
providing stewardship over Federal taxpayer dollars.
    To date, NSF has not had a comprehensive and cohesive program for 
monitoring its awards once they have been funded. Rather, NSF has 
devoted most of its resources to the pre-award and award phases. In 
each of the past 2 years, this gap in NSF's award management has led to 
a reportable condition in the annual audits of NSF's financial 
statements.\11\ The auditors have found that NSF's post-award 
monitoring system is not systematic, risk-based, documented in writing, 
or consistently applied. As a result, the auditors found that awardees' 
use of Federal funds may not be consistent with the objectives of the 
awards; programs and resources may not be protected from waste, fraud, 
and mismanagement; laws and regulations may not be followed; and 
reliable and timely information may not be obtained, maintained, 
reported, or used for decision-making. As a result of these findings, 
the auditors have recommended that NSF establish a comprehensive risk-
based award monitoring program and develop the tools necessary to carry 
out this program.
---------------------------------------------------------------------------
    \11\ Auditor's Report, fiscal year 2002 National Science Foundation 
Financial Statement Audit (Jan. 29, 2003); Auditor's Report, fiscal 
year 2001 National Science Foundation Financial Statement Audit (Jan. 
18, 2002).
---------------------------------------------------------------------------
    NSF has recognized the need to create a risk-based award monitoring 
program and has begun to address this issue. The agency has developed a 
draft policy for conducting this level of award oversight, and we have 
been pleased to provide comments on that policy and anticipate that the 
final version will address our concerns. One of the biggest challenges 
that NSF will face in implementing this policy is the growing strain on 
its resources. The increased emphasis on award monitoring may require 
additional staffing and more resources for training, travel, and 
equipment. To meet all of its responsibilities, NSF management will 
have to show a greater commitment to this program. It may need to 
reevaluate its current business processes to ensure that its oversight 
responsibilities are fully integrated into them.
                 strategic management of human capital
    As in the case of most Federal agencies, NSF is facing human 
capital needs and challenges. Forty percent of NSF's permanent 
workforce is currently eligible for either voluntary retirement or 
early out, and that number will grow to nearly sixty percent by 2007. 
Additionally, despite an increasing workload and a budget that has 
grown from $1 billion to over $5 billion over the past 20 years, the 
number of full-time equivalent positions at NSF has remained relatively 
static.\12\ While NSF has been supplementing its permanent staff with 
temporary staff, or ``rotators,'' this increase has also placed a 
significantly greater burden on the agency, particularly its office of 
Human Resource Management, to continually recruit and train personnel. 
Finding them suitable office space has also become a challenge--space 
has become a rare and precious commodity at NSF. Because of these 
concerns, I have identified strategic management of human capital as a 
top management challenge for NSF over the past few years.
---------------------------------------------------------------------------
    \12\ Compare NSF's fiscal year 1983 Budget Request to Congress with 
NSF's fiscal year 2004 Budget Request to Congress.
---------------------------------------------------------------------------
    Two years ago, this Subcommittee requested that my office analyze 
the adequacy of the agency's staffing and management plans in light of 
the efforts to expand NSF's budget of the next 5 years.\13\ As I 
reported to you last year, NSF's workforce planning falls short of an 
actionable plan, which requires specific objectives, clearly assigned 
responsibilities, well-defined milestones for discrete actions, and 
practical measures of effectiveness for accountability. However, at 
that time, I also reported to you that NSF was in the process of 
contracting for a multi-year business analysis of its operations that 
will include a human capital management plan identifying its future 
workforce requirements.
---------------------------------------------------------------------------
    \13\ S. Rep. No. 107-43 (2001).
---------------------------------------------------------------------------
    Last June, NSF awarded a contract for a comprehensive, $14.8 
million, 3- to 4-year business analysis, including a component on 
future workforce requirements. The contractor appears to be focusing on 
the workforce portion of the business analysis during the early phases 
of the project. One of the contractor's teams has been conducting focus 
groups to develop core competencies at NSF and another team is 
gathering information on individual office staffing, workloads, and 
priorities. OIG management has met with both of these teams to discuss 
OIG core competencies and workloads.
    The first draft of the human capital management plan is due from 
the contractor in early 2004. However, the final plan is not due until 
the end of 2005. We are looking forward to seeing substantial and 
concrete results from this effort, but wonder how NSF will manage its 
valuable human capital assets in the meantime. Along with being a 
principal component of the President's Management Agenda, this is a 
management challenge that NSF has been facing for several years. 
Consequently, human capital issues demand urgent attention. NSF needs 
to develop a short-term plan that identifies its immediate human 
capital needs and the specific resources required to support them 
(e.g., training, space, and equipment). It is clear that NSF needs 
resources to support its infrastructure as its budget expands and the 
workload increases.
    Chairman Bond, this concludes my statement. I would be happy to 
answer any questions you or other members of the Subcommittee may have, 
or to elaborate on any of the issues that I have addressed today.

                 2004 NSF BUDGET: INCREMENT OF INCREASE

    Senator Bond. Thank you, Dr. Boesz, and thanks to all of 
you for very informative testimony. We will, of course, make 
all of the statements included in full in the record. My 
colleagues here are over on the floor, where I should be 
shortly, as I said, worrying about the supplemental 
appropriations bill. I can assure you that their absence from 
the hearing today does not reflect any lack of interest or 
enthusiasm for the scientific work that is covered by your 
testimony today.
    Let me begin by asking a question. I am going to ask first 
Dr. Marburger and then Drs. Colwell and Washington to comment 
on it. As we discussed yesterday, PCAST issued a report that 
recommended that beginning 2004, funding for physical sciences 
and engineering be substantially increased over the next four 
budget cycles. As co-chair of PCAST, you approved the 
recommendation the President sign the authorization bill 
authorizing a doubling of the budget in 5 years.
    The fiscal year 2004 request only provides a 3.2 percent 
increase. What happened? Can you explain why the budget request 
is inconsistent with both PCAST and the NSF reauthorization 
act?
    Dr. Marburger. Senator, probably the most important thing 
that happened was the absence of a passed 2003 budget at the 
time that the final budget was being put together.
    Senator Bond. You did have the reports from both the House 
and the Senate which showed that we were going to increase 
substantially over the requested level for 2003.
    Dr. Marburger. That is true, and I do believe the President 
put a lot of important signals in the budget narrative and in 
the priorities that are evident in the budget. His request for 
NSF was substantially greater than that for other science 
agencies and the evidence of his support for the doubling bill 
itself, for the authorization bill itself was, I think, 
significant, and bodes well for the future.

                      ADDITIONAL FUNDS INVESTMENTS

    Senator Bond. I would ask you to comment on that, Dr. 
Colwell and Dr. Washington, and also we are going to find 
additional funds somewhere, somehow. Where would you recommend 
we spend them?
    Dr. Colwell. One of the major efforts that we have 
underway, of course, is increasing the grant size and duration, 
but first let me just say that the overall conclusion I do draw 
from the budget we got was that the President placed his full 
support and confidence in NSF's mission, but we did not have a 
budget to work from until recently.
    In any case, one of the major initiatives for the National 
Science Foundation, and with the report that was requested, I 
believe, by OMB, we have found that the grant size and 
duration, which has gone from $89,000 in 1998 to, through the 
good graces of this committee and Congress and the President, 
we have been able to increase it this year to $128,000, but it 
is a long way to the $250,000 that we would like to see for a 
per-year budget, and a 5-year budget for each grant, instead of 
just 2 years, which is inefficient. That is a very, very 
important investment for the National Science Foundation, and 
we either do this incrementally--of course, if we were to do it 
in one fell swoop it would be $6 billion, so it is clear there 
are a lot of unmet needs, and we do appreciate the support that 
you and the committee have provided for the National Science 
Foundation.
    Senator Bond. Dr. Washington.
    Dr. Washington. Well, I was just going to add that the 
Foundation has the six priority areas, and we also have the 
need to increase funding in the core discipline areas.
    When I talk with the program managers and the directors, 
they have many proposals that are excellently rated, and yet 
they do not have enough funds to actually, to sort of make 
those awards, and so there is a need for increased funding.
    Senator Bond. Well, are there other particular program 
areas, like nanotechnology, plant genome, TechTalent, that you 
would see as meriting increases? Dr. Colwell.
    Dr. Colwell. Very clearly, the biggest crisis we face as a 
Nation, which was outlined in the Hart-Rudman report is that 
second, and I paraphrase, an attack on one of our cities, would 
be to lose leadership in science and engineering research and 
education, and it is very clear to me that the 21st century 
workforce is one of our major challenges, and we must address 
it, and again I would like to thank you for the increase in the 
stipends for graduate fellowships, because in this request we 
are requesting an additional 350 fellowships, and we know that 
these will go to American citizens, because that is the 
requirement that is there for the graduate fellowships, the 
IGERT and the GK-12.
    And I must say that if I could I would like to share with 
you just some of the wonderful things that are happening in the 
investment in plant genomes, a novel method for determining 
gene function, which is called targeted induced local lesions 
in genes, or TILLIG, was developed through NSF funding, and 
what this does is, it allows selection for natural variance of 
rice genes with useful properties, and this is being set up, 
the TILLIG facilities for looking at these gene variations, at 
places including the International Rice Research Center in the 
Philippines.
    Senator Bond. In the Philippines--where they have developed 
the golden rice, the beta carotene enriched rice.
    Dr. Colwell. Absolutely, so I think that is just one small 
example.

                EXAMPLES OF ADDITIONAL FUNDS INVESTMENTS

    Senator Bond. If you would send me a small packet of 
information on that I would like to find out more about it.
    Dr. Colwell. I would be delighted, sir.
    [Clerk's Note.--The information referred to has been 
retained in subcommittee files.]
    Senator Bond. Thank you. Dr. Marburger, any thoughts you 
have on this?
    Dr. Marburger. Yes. My office has formed interagency 
working groups under the National Science and Technology 
Council which tries to each year identify priorities that come 
up from the agencies and the advisory committees of the 
agencies, including the National Science Board, PCAST, and the 
National Research Council reports. We have identified for 
fiscal year 2004 six priorities, including the ones that I 
mentioned in my oral report and are outlined more completely in 
my written testimony, but certainly nanotechnology, networking 
and information technology, research on climate change, the 
need for technology associated with homeland security, 
educational issues, and certain areas of biology that are not 
adequately funded under the NIH funds.
    All of these areas are strongly represented in the NSF 
portfolio, and I know that NSF's priorities in science are 
quite consistent, not by accident, with the national priorities 
that have been identified for all areas, so I am confident that 
the increases in the NSF budget will be applied to the national 
priorities. We work closely together to make sure that that 
happens.

                HUMAN AND SOCIAL DYNAMICS PRIORITY AREA

    Senator Bond. Let me reflect upon a comment or 
recommendation made by the CBO, which suggested that when you 
look at the priorities, and certainly the priorities that you 
have outlined today are in hard physical science, math, 
engineering, but you are requesting increased funding in human 
and behavioral science. Well, that happens to be my area, but 
that does not happen to be what I thought the focus of the NSF 
was on.
    With the tremendous short-changing we have of engineering 
and the hard physical sciences, where does human and behavioral 
science, which is also under a wide range of agencies that have 
interest and do research there, why does that continue to be a 
priority in the National Science Foundation?
    Dr. Colwell.
    Dr. Colwell. Senator, it is very clear that the analysis of 
risk and understanding of risk and research on risk is very 
important, and it is funded through the social, behavioral, and 
economic sciences as part of the climate change initiative. 
Understanding risk is really critical.
    Secondly, through the Computer Science Directorate, the 
human-computer interface is really very, very important to 
understand, and in the Education Directorate the use of 
technology in enhancing education is again critical, and that 
interface between understanding, as I pointed out in our 
Science of Learning Centers, understanding the cognitive 
aspects of learning, understanding the physiological basis of 
it and the reinforcement, this is all part of fundamental 
research that is very appropriate to the National Science 
Foundation.

                     NATIONAL SCIENCE BOARD BUDGET

    Senator Bond. Let me move on with funding for the National 
Science Board, a question for Dr. Washington, then I might ask 
Dr. Marburger to comment on it.
    The 2003 appropriations act and NSF reauthorization act 
provided the Board with tools to ensure fully effective 
statutory responsibility, execution, and providing independent 
science policy advice and overseeing the budget. The 
administration zeroed out the Board's budget despite what I 
thought was rather clear in the law. I understand the Board 
intends to comply with the law. Dr. Washington, does that mean 
that you expect OMB and the administration to submit a budget 
amendment?
    Dr. Washington. I am still working that issue, but the 
feeling of the Board is that we would, of course, comply with 
the authorization act, so we will be preparing materials and 
presenting them to the Congress as requested.
    Senator Bond. Dr. Marburger, can you help on that?
    Dr. Marburger. The administration intends to comply with 
the law, sir.
    Senator Bond. Well, I have got a suggestion. I trust you 
will take that back. Where the Congress has provided the Board, 
Dr. Washington, with the authority to hire its staff, I 
understand the Board is about to hire an executive officer. I 
hope the Board will also hire its own legal counsel so that the 
Board understands the laws that we pass, confusing as they may 
be, but I would like to get an update from you on where you are 
going with that authority and what you are doing with that.
    Dr. Washington. Okay. Well, we are in the process of 
getting ready to interview on the final list in the search, and 
we expect to be carrying out the interviews somewhere at the 
time of the board meeting, and then it will be up to me to make 
the final selection for the new executive officer.
    I have assembled an interview team made up of several board 
members, and hopefully we can come up with a final decision on 
that.
    Now, in terms of legal counsel and all of that, I am going 
to talk to the Board about that at the May meeting, and working 
with the new executive officer, hopefully we can determine the 
sort of designated senior level staff members needed.

               LARGE FACILITY MANAGEMENT ISSUES: PROGRESS

    Senator Bond. Well, as a lawyer myself, I hate to be 
wishing more lawyers on people, but there are some issues, 
obviously, where it may be helpful.
    Turning to Dr. Boesz, your testimony indicates that the 
Foundation's management has made little progress in responding 
to the large facility management problems identified. As we 
both have noted, the Foundation has just hired a deputy 
director. Do you believe that NSF can resolve these problems 
easily? Are they more complicated? Do you believe the NSF 
should have made more progress in addressing the management 
problems you identified, despite the delay in hiring a deputy 
director?
    Dr. Boesz. Mr. Chairman, there is a lot in that question. I 
believe that NSF has put a substantial effort into planning. 
From the perspective of my staff, this has been going on for 
about 2 years. Where we have become disappointed is, we were 
hopeful that the whole process would have been accelerated, 
because once all of these pieces are in place, the new deputy, 
the guidelines, they still require a tremendous amount of 
training both of NSF staff and the field.
    So the fear has been on our part that this delay in getting 
all of these pieces in place will delay the training and delay 
the ultimate implementation, so I think the next challenge is 
going to be the training, assuming we are successful now.
    Senator Bond. Two years does seem a bit long. Dr. Colwell.
    Dr. Colwell. Yes. I would like to state that we share the 
IG's sense of urgency in these issues, and we agree that NSF 
needs resources to support the infrastructure as our budget 
expands and the workload increases, but I want to tell you we 
are working very hard to live within our means and address the 
many opportunities that we have to choose from in this very 
dynamic environment, and in a sense it is sort of like changing 
the tires when the car is moving at 60 miles an hour. It looks 
like things are in slow motion when you are in the car, but 
things are really moving very fast on the ground.
    So over the past year we have accomplished a lot, as the 
NSF IG has recognized. There is more to be done, and we have an 
action plan in place, and many of our planning processes are 
iterative ones. We seek broad community input. We work to have 
consensus, expert opinions, and the result still may be a draft 
document, but we want to let the breezes in rather than carve 
things in stone. We developed living, breathing plans and 
guides that will evolve as the lessons are learned and as more 
best practices are identified. We want documents that work with 
us, not something written for the record and stuck on a shelf.
    So I would like to say, is there more to be done? No 
question, but there is a lot of hard work being done at NSF by 
the people there, and you have my personal commitment that we 
will finish these activities and we will do it the right way, 
preserving the flexibility of the research enterprise, the 
integrity and stewardship of the taxpayer's dollars, and the 
excellent reputation of NSF, and your help would be 
appreciated. We need your support for the 2004 budget.

                     PLANT BIOTECHNOLOGY EDUCATION

    Senator Bond. Let me assure you you have my support. If the 
car is going 60 miles an hour, pull off the interstate for a 
minute, hire the people you need. If you need more resources 
let us know, because we want to make sure that that 60-mile-an-
hour car is going in the right direction. That worries me. If 
you are going 60 miles an hour and you do not know where you 
are headed that is not necessarily progress, so let us know if 
you need resources.
    And finally, I want to try to conclude this by 11 o'clock, 
but I cannot get out of here without talking about plant 
biotechnology, and I know you would be disappointed if I did 
not. I just had to bring this in.
    Dr. Marburger, yesterday you and I discussed, we are very 
interested in expanding plant biotechnology to the developing 
world countries in places like Africa. Unfortunately, Africa is 
being afflicted with and infected with the eurosclerosis, which 
has come from certain scientific know-nothings who think that 
plant biotechnology is going to create the tomato that eats 
Missouri.
    I would like to know what plans the administration has for 
trying to educate and lead and assist other countries in 
learning about regulating and implementing the benefits of 
plant biotechnology.
    Dr. Marburger. Plant biotechnology is an important area of 
research for us and for our agricultural industry and for other 
industries that may benefit from plant genomics and products 
that are made by plants. Our organization, OSTP, has an 
interagency working group that has just produced a report on 
plant genomics, a 5-year document that we have made available 
to your office, and we plan to encourage the agencies that are 
involved in that to take the necessary steps to implement the 
plan.
    Members of my office do travel to international conferences 
to learn about attitudes in other countries regarding plant 
genomics. We encourage people from other scientific agencies as 
well to participate in forums and discussions and brainstorming 
sessions regarding this very difficult issue.
    I meet twice annually with the Science Ministers from the 
other G-8 countries, and this issue of properly educating the 
public regarding the promise of plant genomics is always on the 
agenda. Someone always brings it up in those countries, and 
discusses how we can work together to identify and promulgate 
best practices.
    It is an international problem. It is not only in Europe. 
There are pockets of concern not always rational about these 
issues, and we are watching this very closely and trying to 
develop strategies where we can.
    Senator Bond. Yes, Dr. Colwell.
    Dr. Colwell. Senator, as you know, I am committed to 
expanding NSF's activities with the developing world. My own 
personal research on cholera has led to strong collaborations 
in Bangladesh and other countries in the third world. The 
National Science Board also produced an excellent report on 
international science and engineering, stressing the importance 
of developing collaborations with scientists in the developing 
world.
    We have a series of workshops that we are supporting, and 
collaborative efforts throughout the developing world focusing 
in many cases on plant biotechnology, and we have 
collaborations on the banana and plantain research in Africa, 
Central and South America. We have PIs working on various 
cereals involved with the AID-sponsored activities to develop 
the cereal genome initiative that links researchers in the 
United States and developing countries.
    Clearly, this is an important area, and I personally am 
very committed to it, as are the rest of the scientists at the 
National Science Foundation.

                        ENGINEERED VACCINATIONS

    Senator Bond. Talking about cholera, would you tell us, I 
keep hearing that perhaps we can genetically engineer a banana 
or some other vegetable or fruit to contain a vaccine to 
vaccinate children throughout the emerging world against 
cholera and other diseases. Do you see this as a potential? 
Where is this? To me it sounds like science fiction, but I am 
hoping it can be a reality.
    Dr. Colwell. Senator, this is one of the most exciting 
developments, the ability to insert vaccine genes into a banana 
or a potato, and then children being able to be vaccinated 
without having a cold chain.
    One of the problems with vaccine delivery is keeping it 
refrigerated and therefore potent, but if you have got the 
genes inserted and it is a benign immunological procedure that 
takes place by just eating the banana, this is a wonderful way 
for vaccination to work. Charlie Arntzen and his team are 
responsible for having achieved this. The field tests have been 
done, and it has proved effective, so yes, this is clearly one 
of the most exciting developments in plant genome sciences, and 
again, thank you for your support.

                        NSF/USAID COLLABORATION

    Senator Bond. This is truly exciting, and it is not only 
the cold chain, but for the small child that is going to get 
vaccinated, a banana is certainly a lot less threatening than a 
needle or a bunch of pinpricks.
    Dr. Clutter, could you come up just for a second and tell 
us what you have been doing in your area in the collaboration 
with USAID and other areas on this work?

                       STATEMENT OF MARY CLUTTER

    Dr. Clutter. Well, Senator Bond, before I say anything 
about what we are doing with AID, I would like to express our 
appreciation to you for having taken the lead in the plant 
genomics field, because whether you realize it or not, your 
support and the committee's support of plant genomics has 
transformed plant biology forever. I just wanted you to know 
that.
    Senator Bond. Thank you.
    Dr. Clutter. We have begun some discussions with AID. In 
the past, we had a very successful program with AID in which we 
supported, NSF supported research in this country, and the 
training of developing country scientists, students in our 
universities, and when they went back home to their developing 
world countries, AID provided support for them and their 
research, so this kind of capacity building is very, very 
important, and we are looking to the future for more 
interactions.
    Senator Bond. Thank you very much, Dr. Clutter.
    Dr. Colwell, we appreciate that. We intend to support it.
    Dr. Clutter, I sincerely appreciate your kind words, 
because when you and I and Dr. Colwell's predecessor were 
working on this, I do remember the scientific outcry that some 
politician would be messing around in the area of science, and 
I am going to frame some of those comments that were made at 
the time. I wear them as a badge of honor. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    As I said, I would love to spend the whole day here, but I 
think I have other duties calling. I know you have work to get 
on with. We have got a lot of kids that we need to get 
interested in science and engineering, and I wish you well. 
Carry on this work. This is the vital work for the future, and 
I thank all of you. We will submit questions for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
         Questions Submitted to the National Science Foundation
           Questions Submitted by Senator Christopher S. Bond
                         nsf funding priorities
    Question. I will try to provide additional funds for the Foundation 
in the fiscal year 2004 bill. Drs. Colwell and Washington, what 
priority areas do you recommend for additional funds?
    Answer. Both NSF and the NSB are in agreement that increasing the 
average award size and duration are priorities of the Foundation. NSF 
grants to researchers currently average about $128,000/year for 3 
years, well below the optimum level of $250,000/year for 5 years as 
identified in the Principal Investigator (PI) survey conducted last 
year. PIs indicated that additional funds would most often be used to 
support more graduate students and post-docs in the research activity.
              legal counsel for the national science board
    Question. The Congress provided the National Science Board with the 
authority to hire its own staff. I am a big proponent of this measure 
because it helps ensure the independence of the Board and helps the 
Board meet its oversight responsibilities.
    Dr. Boesz, do you have your own legal counsel?
    Answer. Yes; in carrying out audits, investigations, and other 
activities that are the responsibility of the Office of Inspector 
General (OIG), I periodically need legal advice and assistance. It is 
important that the OIG have its own counsel, to minimize conflicts of 
interest for the attorney serving in this position and to preserve the 
operational independence of the OIG. The OIG counsel reports directly 
to me.
    Question. Dr. Boesz, do you believe the Board should hire its own 
legal counsel?
    Answer. Yes; for the same essential reasons that the OIG has its 
own counsel, separate from the National Science Foundation Office of 
General Counsel, I believe it is important that the Board have its own 
counsel. The reasons are to minimize conflict of interest for the 
attorney serving the Board and to support Board independence.
 major research equipment and facilities construction for fiscal year 
                                  2004
    Question. Since the fiscal year 2004 budget request provides funds 
for the completion of HIAPER, which was already provided in the fiscal 
year 2003 Appropriations Act, would NSF support using these funds for 
other large facility projects? Which particular project(s) would NSF 
support?
    Answer. Funding was provided for both HIAPER and IceCube in fiscal 
year 2003 appropriations, though no funds were requested. Therefore, 
NSF would first allocate fiscal year 2004 funds requested to all 
ongoing projects to make up for the rescinded amounts from fiscal year 
2003, totaling $15.81 million. With the same attention to maintaining 
the planned funding streams for projects, EarthScope would receive $5.0 
million, and Terascale $10.0 million from remaining unallocated fiscal 
year 2004 funds. NSF would then use all the remaining funds ($40.725 
million) to support Scientific Ocean Drilling (SOD), the next project 
on the NSB-approved priority list as shown in the fiscal year 2004 
budget request. This would allow us to initiate RSVP in fiscal year 
2005, 1 year earlier than shown in the President's fiscal year 2004 
budget request.

                                              (Dollars in Millions)
----------------------------------------------------------------------------------------------------------------
                                        Fiscal year             Adjusted
                                            2003       Fiscal    fiscal    Fiscal    Fiscal    Fiscal    Fiscal
                                       appropriation    year      year      year      year      year      year
                                            with        2004      2004      2005      2006      2007      2008
                                         rescission    request   request   request   request   request   request
----------------------------------------------------------------------------------------------------------------
Project:
    ALMA.............................        29.81       50.84     51.04     49.67     48.84     47.89     46.49
    EarthScope.......................        29.81       45.00     43.73     47.35     49.75     26.80  ........
    HIAPER...........................        25.36       25.53      0.17  ........  ........  ........  ........
    IceCube..........................        24.54       60.00     35.46     33.40     34.30     35.30     36.30
    LHC..............................         9.66    ........      0.06  ........  ........  ........  ........
    NEES.............................        13.47        8.00      8.09  ........  ........  ........  ........
    NEON.............................         0.00       12.00     12.00     16.00     20.00     20.00     20.00
    SPSM.............................         6.96        0.96      1.00  ........  ........  ........  ........
    Polar Aricraft Upgrades..........  .............  ........  ........  ........  ........  ........  ........
    Terascale........................         9.94    ........     10.06  ........  ........  ........  ........
                                      --------------------------------------------------------------------------
      Subtotal, Current MREFC........       149.54      202.33    161.61    146.42    152.89    129.99    102.79
        New Starts...................  .............  ........     40.73  ........  ........  ........  ........
                                      --------------------------------------------------------------------------
          Total, MREFC...............       149.54      202.33    202.33    146.42    152.89    129.99    102.79
                                      ==========================================================================
New Starts:
    Scientific Ocean Drilling........  .............  ........     40.73     36.12     23.00  ........  ........
    RSVP.............................  .............  ........  ........     30.00     42.66     44.00     20.25
    Ocean Observatories..............  .............  ........  ........  ........     24.73     40.33     72.46
                                      --------------------------------------------------------------------------
      New Total, MREFC...............  .............  ........    202.33    212.54    243.28    214.32    195.50
----------------------------------------------------------------------------------------------------------------

              open meetings of the national science board
    Question. The NSF reauthorization bill included a requirement to 
ensure that the Board opened up its meetings.
    Dr. Washington, can you describe what steps you have taken to 
comply with the law? You mentioned in your testimony that Board 
meetings are open for a few exceptions. Can you describe those 
exceptions?
    Answer. The National Science Board publicizes its meeting schedule 
and meeting agenda, including discussion topics and agenda for the 
various committees on the Board website well in advance of all 
meetings. The Board is working to ensure that our plans and activities 
are open and transparent to all interested parties and publics. The few 
instances where sessions were briefly closed, Board members were 
involved in discussion and approval of budget items, personnel matters 
such as vacancies, selection of candidates for major awards and 
recognition, and other similar matters of a sensitive nature.
    Question. Dr. Boesz, can you give us your assessment of the open 
meetings since you are required to audit the Board's compliance with 
this provision?
    Answer. In my opinion, the Board has embraced openness in all of 
its meetings. The norm is now for open committee meetings and they have 
been reasonably well attended. This appears to have been a smooth 
transition with a minimal amount of disruption to Board activities. We 
look forward to submitting our first audit report next February and are 
pleased with the changes we have already seen taking place.
      major research equipment and facilities construction program
    Question. The budget request contains a timeline and cost estimates 
for future construction projects through fiscal year 2008. Some of 
these future projects will receive a certain level of pre-development 
funding from the R&RA accounts even though its actual construction 
support will come from the Major Research Equipment and Facilities 
Construction account.
    Dr. Colwell, I have two questions: (1) Aside from the projects 
mentioned in the requested budget, how many other projects are in the 
pipeline, and how much is NSF spending on pre-development for these 
projects? (2) Does NSF have a centralized system to track any new 
potential large facility projects that receive pre-development funds?
    Answer. NSF often supports the early design and development of 
potential large facility projects. NSF has developed, and is in the 
process of implementing, a centralized system to track projects at all 
stages, including the early stages of design and development. While NSF 
may track such projects in their early stages, they are not identified 
and tracked as MREFC projects (or being in the pipeline) until they are 
approved by the National Science Board (NSB), which is usually after 
initial design and development is completed.
    Currently, there are three projects approved by the NSB but not yet 
funded. These projects--Scientific Ocean Drilling, Rare Symmetry 
Violating Processes, and Ocean Observatories--are identified and 
discussed in the MREFC chapter of the Fiscal Year 2004 Request.
                         business analysis plan
    Question. Last June, NSF entered into a 3-year, $14.8 million 
contract with Booz-Allen-Hamilton to develop a business analysis plan 
for the agency's administration and management. Frankly, this is a 
large and expensive contract for an agency of the size of NSF. I am 
also concerned that your term, Dr. Colwell, is scheduled to end before 
the planned completion of the business analysis plan contract.
    What assurances can you provide the Committee that this contract 
will be implemented as planned and will provide the anticipated 
deliverables geared to supporting NSF's mission and making informed 
future investments in administration and management?
    Answer. NSF has developed an Administration and Management (A&M) 
strategy as part of its overall strategic planning process that is 
consistent with the President's Management Agenda priorities and other 
external requirements. A key element of NSF's A&M strategy is a 
comprehensive, multi-year business analysis. The outcomes of this 
business analysis will guide long-term integrated administration and 
management investments that promise important mission-focused results. 
The business analysis responds directly to issues raised in the 
President's Management Agenda, to government-wide issues identified by 
the General Accounting Office (GAO) and others, and to agency-specific 
challenges such as the effective management of an increasingly 
multidisciplinary science and engineering research and education 
portfolio, and the management and oversight of an increasing number of 
complex large facility projects.
    The business analysis involves the concurrent consideration of 
human capital and next-generation technology-enabled systems in an 
analysis framed around the Agency's core business processes:
  --Resource Allocation;
  --Merit Review;
  --Award Management and Oversight;
  --Knowledge Management; and
  --Performance Assessment and Accountability.
    The primary goals of the NSF Business Analysis effort are to:
  --Document each of the agency's core business processes and define 
        its contribution to the NSF mission;
  --Define process effectiveness and efficiency improvements that 
        capitalize on best practices;
  --Develop future-looking business process scenarios and criteria for 
        success;
  --Design a human capital management plan to provide next-generation 
        human capital capabilities; and
  --Develop an integrated technologies and enterprise architecture plan 
        for future systems in support of the agency's business 
        processes.
    NSF has also identified a series of indicators for success of the 
business analysis to help guide the project planning throughout the 3-
year effort. Through the business analysis, NSF expects to achieve:
    Business Processes that . . .
  --Effectively address emerging trends in NSF's S&E portfolio;
  --Leverage NSF core strengths and are consistent with NSF's mission 
        and vision;
  --Achieve NSF customer service goals; and
  --Incorporate best practices from the public and private sectors.
    A Human Capital Management Plan that . . .
  --Enables the hiring/retention of the right mix of people;
  --Addresses succession planning and Government-wide human capital 
        requirements;
  --Identifies effective learning strategies that develop critical 
        competencies and skills;
  --Manages projected workload and competency needs; and
  --Provides flexible workforce classifications.
    A Technology and Tools Plan that . . .
  --Provides an integrated Enterprise Architecture (EA) platform that 
        supports and enables NSF's evolving business processes;
  --Defines a migration strategy to guide NSF's implementation of its 
        new EA;
  --Provides the infrastructure capability to meet future workflow 
        demands; and
  --Leverages technology to support forward-thinking business 
        processes.
    The business analysis is structured to ensure maximum participation 
and ``buy-in'' on the part of NSF management and staff and the external 
communities that NSF serves. Nearly 300 members of the NSF staff have 
already participated in the business analysis effort through 
interviews, focus groups, and process teams. In addition, over 2,000 
NSF grant applicants responded to a survey developed as part of the 
business analysis to gauge community satisfaction with NSF's processes 
and services.
    The business analysis is also designed to produce fully researched 
and justified recommendations that can be implemented by NSF. Rather 
than submit to NSF a list of static recommendations at the end of the 
review period, the contractor, working in partnership with NSF, will 
develop scenarios for process improvement throughout the course of the 
study. These scenarios will include a business case, pros and cons, an 
implementation plan, and criteria for successful implementation.
    NSF is completely confident that the business analysis will produce 
a clear roadmap for significant improvements in NSF's business 
processes, human capital management, and technology and tools 
management; and will inform the agency's investments in Administration 
and Management for the foreseeable future.
               math and science partnership (msp) program
    Question. Can you give us an update on the progress of the new Math 
and Science Partnership program. To what extent are you coordinating 
your program with the Department of Education?
    Answer. In fiscal year 2003, 271 proposals were received for the 
second solicitation (NSF 02-190) for MSP Comprehensive and Targeted 
Projects (84 Comprehensive projects and 187 Targeted projects). In 
February and March 2003, reviewers came to Arlington to provide their 
analyses of the proposals. These proposals are currently in the review 
process with awards expected by September 2003.
    The initial MSP Program Solicitation for Comprehensive and Targeted 
Projects, NSF 02-061, was developed by NSF staff in cooperation with 
staff from the Department of Education (ED). In addition to the 
formulation of guidelines and review criteria that met the MSP and 
other goals of the Foundation, NSF and ED staff also worked to 
purposefully insert language into the program solicitation that would 
encourage the field to submit MSP proposals of interest to ED.
    For the second MSP solicitation, NSF 02-190, ED provided the names 
of numerous potential reviewers, many of whom were invited and then 
joined on sub-panels that met in February and March 2003. As noted 
above, analysis of all the submissions and reviews are ongoing with 
awards expected by early Fall 2003.
    NSF and ED Program Officers also work together on the Research, 
Evaluation and Technical Assistance (RETA) portfolio. Both NSF and ED 
senior managers and staff contributed to an inaugural meeting of RETA 
Principal Investigators and other project leaders in November 2002. For 
the full RETA solicitation, NSF 03-541, ED Program Officers were 
invited to participate in the development of the new solicitation and 
were invited to review the names of the reviewers that will meet to 
review MSP RETA proposals in June 2003.
    In addition to collaboration on MSP at the staff level of the two 
agencies, further discussion and collaboration occurs at an interagency 
level through regular meetings co-chaired by Dr. Judith Ramaley (NSF) 
and Dr. Susan Sclafani (ED), thus bringing senior level insights and 
decision-making into the evolving MSP effort.
    NSF and ED staff also worked together on an initial MSP Learning 
Network meeting, held in January 2003, that brought together Principal 
Investigators and other personnel from the initial cohort of 
Comprehensive, Targeted and RETA projects.
    For fiscal year 2003, ED received an appropriation of roughly $101 
million to be reallocated to States for local Mathematics and Science 
Partnership efforts. NSF is collaborating with ED to arrange a workshop 
for staff from the Department of Education of each State and U.S. 
territory to learn about this new source of funding and to receive 
guidance on developing Requests for Proposals. The workshop is 
currently planned for June 13-14, 2003 in Washington, DC.
              intergovernmental personnel act appointments
    Question. NSF's budget request includes a 21 percent increase in 
rotators through the Intergovernmental Personnel Act (IPA). These 
people come from other agencies to work at NSF for up to 4 years, but 
typically 2 to 3 years, and then return to their former agencies.
    If there is a need for a larger workforce at NSF, why is NSF 
requesting to keep the number of FTEs for NSF staff at the current 
level? Why is NSF increasing its dependence on IPAs, which are 
temporary in nature?
    Answer. NSF aims to employ a mix of permanent staff, IPAs, and 
Visiting Scientists, Engineers, and Educators throughout the 
Foundation. NSF's permanent staff provides the stable base of knowledge 
and expertise needed to operate efficient and productive programs 
within the Federal structure. IPAs and other temporary staff give NSF a 
direct, ongoing connection to the research and education community that 
complements the work of our external advisory committees and Committees 
of Visitors.
    The plan for an increase of 30 IPAs in the fiscal year 2004 request 
should be viewed in context of the ongoing development and 
implementation of NSF's Administration & Management (A&M) Strategic 
Plan and the business analysis currently underway by Booz-Allen-
Hamilton. NSF elected to request an increase in IPAs and defer 
requesting additional FTEs pending the outcome of the business 
analysis. We expect the fiscal year 2005 request will be informed by 
the results of the business analysis.
the science, technology, engineering, and mathematics talent expansion 
                             program (step)
    Question. An ongoing concern of Congress is the need for making 
sure that we have enough college students with majors in science, 
engineering, and technology fields. Congress has shown support for this 
program by making significant increases to the tech talent or ``STEP'' 
program in the last fiscal year. Why is NSF requesting only $7 million 
for Tech Talent?
    Answer. The NSF fiscal year 2004 budget was submitted to Congress 
before final action had been taken by Congress on the fiscal year 2003 
request. The $5 million (250 percent) increase requested by the 
Foundation for the STEP program in fiscal year 2004, from $2 million to 
$7 million, was approved by OMB many months earlier. The increase 
reflected our strong commitment to the importance of attracting more 
students to science and math and encouraging more students to major in 
science, technology, engineering and mathematics (STEM) fields. NSF 
agrees that our future as a Nation will be shaped in significant ways 
by the science and math competency of our citizens and by the quality 
and diversity of the science, technology, engineering and mathematics 
(STEM) workforce. Taken as a whole, NSF's commitment to workforce 
development is expressed in a cluster of related requests that together 
address key points of transition along the pathway to STEM careers. 
These include preparation for college and the transition to 
postsecondary study (MSP), the quality of the undergraduate experience 
(STEP), innovations in technological education (ATE) and support for 
advanced study (IGERT, GRF, GK-12). These investments are a package. 
They are supported and enhanced by the NSF request for the 
establishment of a new Workforce for the 21st Century priority area.
    In addition, there are other components of the EHR portfolio that 
specifically address the preparation and professional development of 
science and math teachers and faculty. As a whole, the portfolio has a 
strong emphasis on workforce development.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig
    experimental program to stimulate competitive research (epscor)
    Question. In fiscal year 2003, Congress appropriated $90 million 
for the core EPSCoR program, but NSF requested only $75 million in 
fiscal year 2004. This is below the fiscal year 2002 appropriation of 
$80 million and would take EPSCoR back to the fiscal year 2001 level. I 
am disappointed to see that the National Science Foundation, while 
seeking an increase in funding in fiscal year 2004, has so reduced the 
EPSCoR program. Please justify the requested funding level.
    Answer. Within the constraints of the overall EHR request, it was 
not possible to accommodate the priority increases such as the Math and 
Science Partnership while maintaining all programs in the existing 
portfolio at the Fiscal Year 2003 Current Plan levels. This required 
difficult decisions on where reductions could be taken while minimizing 
the adverse impact on program outcomes. In the case of EPSCoR, the 
requested fiscal year 2004 funding level of $75 million will allow the 
program to meet its current obligations, including approximately $41 
million for existing Research Infrastructure Improvement awards. This 
level of funding will also allow continuation of EPSCoR's highly 
successful outreach program to acquaint EPSCoR researchers with NSF 
programs and policies and a comprehensive program of technical 
assistance designed to increase the success ratio of EPSCoR 
institutions in the NSF's major grant programs (e.g., Engineering 
Research Centers). Finally, the EPSCoR program also participates in co-
funding efforts within the Foundation's regular grant programs, 
providing for an additional $30 million for investigators in EPSCoR 
States to a total of $105 million.
               research infrastructure improvement awards
    Question. I believe that the Research Infrastructure Improvement 
(RII) awards are the heart of the EPSCoR program. Without these awards, 
growth in science and research is virtually impossible in the 
participating States. States are now eligible for up to $3 million per 
year for infrastructure awards. Please provide a status report on the 
awards made and the amount per State.
    Answer. Over the past 3 years, the Research Infrastructure 
Improvement (RII) awards have provided support for infrastructure 
improvements in almost all EPSCoR States. To date, all States have had 
the opportunity to compete for these awards of up to $9 million for 36 
months, although not all States have been successful in securing 
funding. The NSF staff works closely with unsuccessful States to 
provide a level of assistance that will help ensure increased 
competitiveness in the future. Shown below is a chart summarizing the 
RII funding to date.

              RESEARCH INFRASTRUCTURE IMPROVEMENT GRANT PROGRAM (FISCAL YEAR 2001-FISCAL YEAR 2003)
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year
                      State                            2001            2002            2003            Total
----------------------------------------------------------------------------------------------------------------
Alabama.........................................             3.0             3.0             2.5             8.5
Alaska..........................................             9.0             0.0             0.0             9.0
Arkansas \1\....................................             0.0             0.0             0.0             0.0
Delaware \2\....................................             0.0             0.0             0.0             0.0
Hawaii..........................................             0.0             0.0             3.0             3.0
Idaho...........................................             0.0             3.0             3.0             6.0
Kansas..........................................             0.0             0.0             3.0             3.0
Kentucky........................................             0.0             3.0             3.0             6.0
Louisiana.......................................             3.0             3.0             3.0             9.0
Maine...........................................             0.0             0.0             2.0             2.0
Mississippi.....................................             0.0             2.0             2.0             4.0
Montana.........................................             3.0             3.0             3.0             9.0
Nebraska........................................             3.0             3.0             3.0             9.0
Nevada..........................................             0.0             3.0             3.0             6.0
New Mexico......................................             0.0             2.0             2.1             4.1
North Dakota....................................             0.0             2.0             2.0             4.0
Oklahoma........................................             0.0             3.0             3.0             6.0
Puerto Rico.....................................             0.0             0.0             2.1             2.1
South Carolina..................................             0.0             3.0             0.0             3.0
South Dakota....................................             3.0             0.0             3.0             6.0
Vermont.........................................             0.0             0.0             2.8             2.8
Virgin Islands \2\..............................             0.0             0.0             0.0             0.0
West Virginia...................................             0.0             3.0             3.0             6.0
Wyoming \3\.....................................             0.0             0.0             0.0             0.0
                                                 ---------------------------------------------------------------
      TOTAL:....................................  ..............  ..............  ..............           108.5
----------------------------------------------------------------------------------------------------------------
\1\ Pending RII Proposal in fiscal year 2003.
\2\ Denotes New EPSCoR Jurisdictions with planning grants.
\3\ Submission in fiscal year 2003.

          use of epscor state faculty in merit review process
    Question. There has been considerable discussion about the need to 
increase the number of scientists and researchers from EPSCoR States on 
peer review panels and advisory committees. Please describe your 
progress and efforts to place more faculty from EPSCoR States on these 
panels and committees.
    Answer. The National Science Foundation and the EPSCoR Office in 
particular have focused significant efforts in increasing the numbers 
of merit reviewers from the EPSCoR States. During the period 1996-1999, 
the EPSCoR Office monitored and reported the share of total NSF 
reviewers and panelists from EPSCoR States engaged in the Foundation's 
merit review process. The names of over 2,000 potential EPSCoR 
reviewers were also distributed among NSF's various Directorates. In 
addition, EPSCoR's outreach initiative has allowed NSF Program Officers 
to become more familiar with researchers and educators in EPSCoR States 
and encourage them to serve as merit reviewers and panelists for NSF 
grant competitions. The EPSCoR Office will analyze the reviewer data 
for fiscal year 2003 to determine if these activities have increased 
EPSCoR's share of total NSF reviewers and panelists engaged in the 
Foundation's merit review process from its previous level of 
approximately 7 percent (1996-99).
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
              research instrumentation and infrastructure
    Question. The National Science Board has released a draft report 
recommending that the Foundation substantially increase that portion of 
its budget that goes to help institutions acquire state-of-the-art 
instrumentation and research infrastructure. We know from past 
experience fields like astronomy are very dependent on infrastructure. 
The National Radio Astronomy Observatory (NRAO) operations in New 
Mexico and elsewhere are just one example.
    Dr. Colwell, how does the Foundation intend to respond to the 
Board's report--particularly to the recommendation that calls for a 
program to address what is called ``mid-sized infrastructure'' 
(equipment in the millions to tens of millions of dollars)? How will 
such an effort be structured to benefit both the universities and 
national user facilities supported by the NSF?
    Answer. Since the NSB report was released only 2 months ago, we are 
still examining its recommendations and how best to implement them. The 
Foundation's fiscal year 2004 budget request proposed increased funding 
for S&E infrastructure, including the MREFC Account and mid-size 
infrastructure projects, such as the Advanced Modular Incoherent 
Scatter Radar (AMISR). I have also encouraged Assistant Directors and 
Office Heads to continue to propose new mid-size infrastructure 
projects for funding in subsequent budget years.
    In addition, NSF has continued to request increases in the Major 
Research Instrumentation Program (MRI). For this program $90 million is 
requested in the fiscal year 2004 budget. In addition to support to 
research-intensive institutions for state-of-the-art research 
instrumentation, MRI provides substantial support to small schools, 
non-Ph.D.-granting institutions and minority serving institutions that 
are in need of cutting-edge instrumentation.
              national radio astronomy observatory (nrao)
    Question. Dr. Colwell, in the fiscal year 2003 appropriations bill, 
we provided NRAO with a budget of about $45.7 million. In the fiscal 
year 2004 request, NSF is proposing to fund NRAO at a level of $42.7 
million, which represents a reduction of about $3 million. The request 
level of $42.7 million would put NRAO below the fiscal year 2001 level. 
Given the new activities going on at NRAO--such as the construction of 
the new ALMA telescope and work to revitalize the VLA--what is the 
justification for such a budget cut?
    Answer. The National Radio Astronomy Observatory (NRAO) remains one 
of NSF's most respected and productive national facilities. Our recent 
decision to proceed with construction of the international Atacama 
Large Millimeter Array (ALMA), in which NRAO leads the North American 
participation, exhibits our confidence in their management and the 
exceptional scientific merit of the program that they are carrying out 
across a wide range of radio astronomy.
    The operating budget for NRAO in fiscal year 2001 was $45.43 
million, which included a $5 million one-time increment for improvement 
of infrastructure, particularly at the Green Bank site. The fiscal year 
2003 request level for NRAO was $39.63 million. This request 
represented an approximate 2 percent decrease from the fiscal year 2002 
level of $40.43 million (which reflected the reduction of the $5 
million one-time increment) even though the request for the Division of 
Astronomical Sciences was down by 2.8 percent from the fiscal year 2002 
level.
    The fiscal year 2004 request level for NRAO is $42.73 million, 
formulated before the fiscal year 2003 appropriation level was known. 
This is $3.1 million above the fiscal year 2001 level (when the one-
time increment is taken into account) and would support operations, 
maintenance, and instrumentation for the Robert C. Byrd Green Bank 
Telescope, the Very Large Array, and the Very Long Baseline Array as 
well as continued progress on the Expanded Very Large Array.
                    formula-driven funding increases
    Question. Dr. Colwell, you know that I am a major advocate for 
increasing research through the National Science Foundation and I am 
sure that Senator Bond and Senator Mikulski are going to do everything 
they can to support the Foundation even though the budget picture will 
be very constrained. Nevertheless, in recent days we have heard from 
those in the science community who are advocating something they call a 
``3-2-1'' increase for NSF. For example, if the subcommittee could give 
NSF a $600 million increase (an amount not too different than last 
year's increase), they contend that $300 million would go to increase 
research; $200 million should go for education and training (at the 
collegiate and K-12 level); and $100 million be targeted for the 
Science Board's infrastructure recommendation. Do you think such a 
distribution makes sense and why?
    Answer. A formula-driven increase in funding is unlikely to 
appropriately reflect either opportunities or needs in the research 
community. The distribution of a hypothetical increase in NSF's 
appropriation should reflect the priorities stated in the original 
budget request, which in fiscal year 2004 emphasized the need for 
investments in research tools and infrastructure. Other priorities 
include the need to increase both the size and duration of awards, and 
the desirability of funding a greater proportion of existing quality 
proposals that go unfunded in every cycle. In that respect, additional 
funding for research activities could be used immediately to support 
proposals already reviewed, with a minimum of additional cost to the 
agency.
   proposed reduction for the science, technology, engineering, and 
              mathematics talent expansion program (step)
    Question. Dr. Colwell, last year I joined with Senator Mikulski and 
Senator Bond--and others--to establish a program at NSF we call ``tech 
talent''--a program designed to attract more U.S. citizens to pursue 
and acquire undergraduate degrees in science and engineering. Senator 
Mikulski, the chair of this subcommittee, provided $22 million for that 
program last year. The fiscal year 2004 budget request provides $7 
million. Do you really want us to reduce the program by some 66 percent 
in 1 year when clearly the United States must do more to encourage our 
citizens to pursue degrees in these fields? What is the 
Administration's rationale for this recommendation?
    Answer. The NSF fiscal year 2004 request was submitted to Congress 
before the fiscal year 2003 budget was approved by Congress. The $5 
million (250 percent) increase requested by the Foundation for the STEP 
program in fiscal year 2004, from $2 million to $7 million, was 
approved by OMB many months earlier. This reflected our strong 
commitment to the importance of attracting more students to science and 
math and encouraging more students to major in science, technology, 
engineering and mathematics (STEM) fields. NSF agrees that our future 
as a Nation will be shaped in significant ways by the science and math 
competency of our citizens and by the quality and diversity of the 
science, technology, engineering and mathematics (STEM) workforce. 
Taken as a whole, NSF's commitment to workforce development is 
expressed in a cluster of related requests that together address key 
points of transition along the pathway to STEM careers. These include 
preparation for college and the transition to postsecondary study 
(MSP), the quality of the undergraduate experience (STEP), innovations 
in technological education (ATE) and support for advanced study (IGERT, 
GRF, GK-12). These investments are a package. They are supported and 
enhanced by the NSF request for the establishment of a new Workforce 
for the 21st Century priority area.
    In addition, there are other components of the EHR portfolio that 
specifically address the preparation and professional development of 
science and math teachers and faculty. As a whole, the portfolio has a 
strong emphasis on workforce development.
                    national science digital library
    Question. Dr. Colwell, NSF has been a leader in helping to close 
the so-called ``digital divide'' by its support for research and 
development related to digital libraries. However the fiscal year 2004 
budget seeks to cut NSF's support for the national science digital 
library (NSDL) from $23 million to $18 million--a $5 million reduction 
in 1 year is substantial. Can you explain the rationale behind such a 
proposal?
    Answer. The decrease in the request for the national science 
digital library was primarily due to the funding of the Core 
Integration project the previous year that allowed for centralized 
management of the library. Centralized management allows for 
operational efficiency and enabled a reduction in overall funding need 
for fiscal year 2004.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    experimental program to stimulate competitive research (epscor)
    Question. Despite increases provided by Congress for NSF EPSCoR, 
the budget request for NSF EPSCoR has remained flat. The fiscal year 
2004 budget request is $75 million. This is the same level of funding 
as the level of funding appropriated for NSF EPSCoR in fiscal year 
2001. Does NSF believe it would be beneficial to seeking greater levels 
of EPSCoR funding in the future?
    Answer. Funding levels proposed for specific NSF programs each 
fiscal year are based on a number of factors including Administration 
priorities, and a desire to balance funding among competing priorities. 
The requested fiscal year 2004 funding level of $75 million will allow 
the program to meet its current obligations, including approximately 
$41 million for existing Research Infrastructure Improvement awards. 
This level of funding will also allow continuation of EPSCoR's highly 
successful outreach program to acquaint EPSCoR researchers with NSF 
programs and policies and a comprehensive program of technical 
assistance designed to increase the success ratio of EPSCoR 
institutions in the NSF's major grant programs (e.g., Engineering 
Research Centers). Finally, the EPSCoR program also participates in co-
funding efforts within the Foundation's regular grant programs, 
providing for an additional $30 million for investigators in EPSCoR 
States to a total of $105 million.
                                 ______
                                 
   Questions Submitted to the Office of Science and Technology Policy
           Questions Submitted by Senator Christopher S. Bond
          plant biotechnology research in the developing world
    Question. I am very interested in extending plant biotechnology to 
developing world countries in places such as Africa. I strongly believe 
that plant biotechnology can be a powerful tool in addressing the 
starvation that is occurring in Africa. However, like Europe, there are 
public misperceptions about the benefits of genetically modified crops.
    To what extent is the Administration trying to educate other 
countries about plant biotechnology?
    Answer. The State Department, USAID, USDA and other agencies have 
numerous activities designed to provide information to other countries 
on agricultural biotechnology. These include bilateral and multilateral 
(OECD, Codex, APEC, etc.) efforts to foster biotechnology research and 
the use of science-based regulatory systems. USAID has increased it 
spending in this area to $25 million in both fiscal year 2002 and 
fiscal year 2003. The USDA is sponsoring a major ministerial conference 
that will be held this summer in California on new agricultural 
technologies (including biotechnology).
    Question. The NSF Authorization Act expanded the plant genome 
program to develop partnerships between United States and developing 
world research institutions. What thoughts do you have in implementing 
this new authority?
    Answer. One of the most effective ways to develop long-lasting 
partnerships in plant biotechnology between United States and 
developing world research institutions would be to form close working 
relationships directly between scientists. Scientists from developing 
countries can articulate their needs and U.S. scientists can tailor 
their participation based on those needs. Within the United States, 
this sort of activity would be best managed by an interagency 
collaboration between the NSF, USAID and USDA. Each agency brings to 
the table unique strengths that can be combined into a coherent 
program.
    Question. To what extent have you discussed this matter with USAID? 
How can OSTP help us in coordinating these activities with other 
relevant agencies such as USDA?
    Answer. The majority of OSTP's effort in agricultural biotechnology 
has focused on domestic regulatory issues, risk assessment research, 
and genomics. OSTP coordinates these activities through: the NSTC 
Interagency Working Group (IWG) on Plant Genomes, which has provided 
oversight and overall guidance to the National Plant Genome Initiative 
since 1998; the NSTC Subcommittee on Biotechnology; and the NEC 
Agricultural Biotechnology Working Group. Using these mechanisms, OSTP 
will work with the agencies to assist in the coordination of their 
international agricultural biotechnology activities. For example, the 
IWG on Plant Genomes is exploring ways to link developing country 
scientists to U.S.-funded plant genome research programs.
             priority setting for major research facilities
    Question. Due to the perceived subjectivity of NSF's priority-
setting process for large research facilities, there has been an 
increased effort by various scientific interest groups to lobby the 
Congress on their specific project. This creates the perception that if 
you cannot get past the decisions of the Director, then going to 
Congress directly is an acceptable route. In response to this concern, 
we asked the National Academy of Sciences to develop criteria to rank 
and prioritize large research facilities.
    Dr. Marburger, what are your views about this issue? Do you support 
the NAS study and do you think that a rational, objective, and fair 
system can be created to prioritize NSF's large facilities?
    Answer. No longer the exclusive province of physics and astronomy, 
resource-intensive instrumentation has opened significant new 
opportunities for discovery and applications in every technical field. 
This has led to the emergence of demands for expensive facilities and 
instrumentation across a wider spectrum of fields than in the past. As 
a result, the fields traditionally associated with ``Big Science'' are 
experiencing increased competition for funds. I regard the interest 
shown among the science community and within Congress in NSF's 
facilities programs to be a symptom of this growth in the need for 
complex, expensive instrumentation in the post cold-war era. The issues 
Congress has asked the National Academy of Sciences to address are not 
confined to the National Science Foundation and probably cannot be 
fully resolved in isolation from other agencies, or indeed from other 
nations. I am supportive of the process that the National Academy has 
undertaken and am looking forward to learning of their recommendations.
                     math and science partnerships
    Question. Can you give us an update on the progress of the new Math 
and Science Partnerships program? To what extent are you coordinating 
your program with the Department of Education's math and science 
program?
    Answer. The Math and Science Partnership (MSP) program is 
administered by the Education and Human Resources Directorate (EHR) of 
the National Science Foundation (NSF). The guidelines for proposals 
under the initial MSP Program Solicitation (NSF 02-061) for 
Comprehensive and Targeted Projects were released on January 30, 2002. 
In response to this Solicitation, 286 MSP proposals were submitted from 
the field in April 2002. These were reviewed in June 2002 by 23 sub-
panels. Reviewers were drawn from around the Nation and represented a 
diverse group of distinguished researchers, educators and practitioners 
from institutions of higher education, K-12 schools and school 
districts, not-for-profit and for-profit organizations, and other 
stakeholders representing the fields of mathematics, science, 
engineering, administration, evaluation, assessment, technology, and 
policy. Ultimately, 24 awards were made, 7 to Comprehensive projects 
(K-12, both mathematics and science) and 17 to Targeted projects (more 
focused in scope).
    In fiscal year 2003, a second solicitation (NSF 02-190) for MSP 
Comprehensive and Targeted Projects called for full proposals to be 
submitted by January 7, 2003. In response, 271 proposals were received 
for 84 Comprehensive projects and 187 Targeted projects. In February 
and March 2003, reviewers came to Arlington to provide their analyses 
of the proposals. These proposals are currently in the review process 
with awards expected by September 2003.
    In addition to the competition for MSP Comprehensive and Targeted 
Projects, the MSP program also makes awards for Research, Evaluation 
and Technical Assistance (RETA) projects to support the work of the 
partnership projects. A ``Dear Colleague'' Letter (NSF 02-103) calling 
for such RETA proposals was posted in March 2002, and 42 proposals were 
received in June 2002. Fifteen awards--many for design of potential 
larger scale efforts to be funded in the future--were made from the NSF 
fiscal year 2002 appropriation, and NSF program staff are currently 
managing these projects. A full solicitation (NSF 03-541) for RETA was 
posted in February 2003, with proposals due in May 2003 and to be 
reviewed in June 2003.
    Regarding coordination of NSF efforts with those of the Department 
of Education (ED), OSTP has worked with staff from both agencies since 
the initial conceptualization of the MSP to make sure that they 
coordinate their efforts. The initial MSP Program Solicitation for 
Comprehensive and Targeted Projects was developed by NSF staff in 
cooperation with staff from ED. In addition to the formulation of 
guidelines and review criteria that met the MSP and other goals of the 
NSF, NSF and ED staff also worked to purposefully insert language into 
the Program Solicitation that would encourage the field to submit MSP 
proposals of interest to ED. The Solicitation included the following 
wording:

    ``As a subset of the targeted awards, the U.S. Department of 
Education and NSF will consider co-funding partnerships that address 
the following strategies:
      a) engaging classroom teachers in mathematical or scientific 
        research and development projects sponsored by institutions of 
        higher education and/or other private and public sector 
        research organizations;
      b) engaging practicing teachers as professional colleagues who 
        work together with scientists, mathematicians and engineers to 
        master advanced new content and teaching strategies;
      c) demonstrating how technology can be used in the classroom to 
        deepen the scientific and mathematical understanding of 
        teachers and to promote higher student achievement; or
      d) establishing and evaluating the effectiveness of differential 
        salary scales used to make the mathematics and science teaching 
        profession more comparable in pay to the private sector, both 
        as a tool to attract beginning teachers with deep mathematical 
        or scientific training and as a means to create a career ladder 
        capable of retaining highly skilled and effective teachers.''

    Following the release of the initial solicitation, NSF Program 
Officers met weekly to discuss the MSP review process and post-award 
management, and were joined by the lead ED MSP Program Officer who 
regularly participated in our cooperative work. An important component 
of that work was the identification of potential reviewers for the MSP 
proposals that were submitted. The ED Program Officer involved in MSP 
was also assigned as a Federal officer to two of the sub-panels of 
reviewers that met in June 2002.
    Decisions about which proposals were most competitive for funding 
involved strong collaboration between NSF and ED. Twenty-two 
partnership projects were funded entirely through the NSF MSP 
appropriation. Two jointly funded projects continue to be cooperatively 
managed by program staff at both NSF and ED.
    For the second MSP solicitation, NSF 02-190, ED provided the names 
of numerous potential reviewers, many of whom were invited and then 
joined on sub-panels that met in February and March 2003. As noted 
above, analysis of all the submissions and reviews are ongoing with 
awards expected by early Fall 2003.
    NSF and ED Program Officers also work together on the RETA 
portfolio. In response to the initial ``Dear Colleague'' Letter, they 
(a) established the sub-panels that would review the proposals, and (b) 
guided the process of making decisions for awards. Both NSF and ED 
senior managers and staff contributed to an inaugural meeting of RETA 
Principal Investigators and other project leaders in November 2002. For 
the full RETA solicitation, ED Program Officers were invited to 
participate in the development of the new solicitation and were invited 
to review the names of the reviewers that will meet to review MSP RETA 
proposals in June 2003.
    As you can see, both NSF and ED have continued to work in 
partnership on this program, culminating in a Math Summit hosted by 
Secretary Paige in February of this year. Dr. Colwell, Representative 
Ehlers and I spoke at the event, which launched the new Math and 
Science Initiative (MSI). The MSI is a broad based, interagency effort 
that includes not only ED and NSF, but also other science agencies such 
as NASA, NIH and the Department of Energy. More recently, 
representatives from private foundations, professional associations and 
textbook publishers have joined the Initiative. The goals of the MSI 
are to increase public awareness of the importance of math and science 
education, to improve the quality of teacher knowledge in these 
subjects, and to build the scientific knowledge base to guide 
improvements in teacher professional development and classroom 
practices. I continue to work with all of these agencies to ensure that 
Federal investments in improving the quality and effectiveness of K-12 
math and science education are implemented in a manner that minimizes 
duplication and maximizes the difference these programs make for 
students and their teachers.
                              tech talent
    Question. An ongoing concern of Congress is the need for making 
sure that we have enough college students with majors in science, 
engineering, and technology fields. Congress has shown support for this 
program by making significant increases to the tech talent or ``STEP'' 
program in the last fiscal year.
    Why is NSF requesting only $7 million for Tech Talent?
    Dr. Washington and Dr. Marburger, what are your views on the tech 
talent program? Do you believe there is a strong need for this program?
    Answer. While the NSF reauthorization included the STEP program at 
levels of $22 million in fiscal year 2003, $30 million in fiscal year 
2004, and $35 million in fiscal year 2005, the NSF fiscal year 2004 
budget was submitted to Congress before the fiscal year 2003 budget was 
approved by Congress. The increase requested for STEP in fiscal year 
2004 reflects a strong commitment to the importance of attracting more 
students to science and math and encouraging more students to major in 
science, technology, engineering and mathematics (STEM) fields. I agree 
that our future as a Nation will be shaped in significant ways by the 
science and math competency of our citizens and by the quality and 
diversity of the STEM workforce. Taken as a whole, the Administration's 
commitment to workforce development is expressed in a cluster of 
related NSF requests that together address key points of transition 
along the pathway to STEM careers. These include preparation for 
college and the transition to postsecondary study (MSP), the quality of 
the undergraduate experience (STEP), innovations in technology 
education (ATE) and support for advanced study (IGERT, GRF, GK-12). 
These investments are a package. They are supported and enhanced by the 
NSF request for the establishment of a new workforce for the 21st 
century priority area whose goals are as follows:
  --Prepare scientists, mathematicians, engineers, technologists and 
        educators capable of meeting the challenges of the 21st 
        century;
  --Attract more U.S. students to science and engineering fields; and
  --Broaden participation in science and engineering fields.
    In addition, there are other components of the EHR portfolio that 
specifically address the preparation and professional development of 
science and math teachers and faculty. Taken as a whole, I believe that 
the portfolio has a strong emphasis on workforce development.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici
    Question. Dr. Marburger--in January of this year the full Committee 
published in the Congressional Record a report to accompany what turned 
out to be the Senate's omnibus fiscal year 2003 appropriations bill. In 
that report, we called on OSTP to convene an interagency working group 
to look at the semiconductor design and manufacturing situation in this 
country relative to what was going on in other countries. Can you tell 
us where the Administration is on this matter? Is this Nation in danger 
of losing both its semiconductor design and manufacturing capabilities 
to other nations?
    Answer. The Administration recognizes the importance of 
manufacturing to the Nation's economy and security, and is following 
the issue of manufacturing competitiveness through parallel activities. 
First, the President's Council of Advisors on Science and Technology 
(PCAST) is undertaking a study of high technology manufacturing. 
Because manufacturing plays a significant role in several important 
industry sectors, this study will not be limited exclusively to 
semiconductor manufacturing. It will, however, have a specific emphasis 
on the information technology manufacturing sector--including 
semiconductor manufacturing--and will be investigating issues of 
international leadership and offshore manufacturing trends, and their 
impact on technical capability and economic competitiveness. Mr. George 
Scalise, President of the Semiconductor Industry Association, will 
chair the PCAST sub-panel leading this study.
    Second, Commerce Secretary Evans has asked his Undersecretary for 
Trade, Grant Aldonas, to work with others at the Department of Commerce 
and elsewhere in the government to undertake a comprehensive look at 
issues influencing the long-term competitiveness of U.S. manufacturing 
industries. This effort will include substantive outreach to the 
private sector. A report documenting the findings of this investigation 
and making recommendations for moving forward is expected later this 
year.
    We expect that the studies that are now underway will provide a 
more definitive view into the issue of our Nation's semiconductor 
design and manufacturing capabilities and its ramifications and we will 
keep you informed as they progress.

                          SUBCOMMITTEE RECESS

    Senator Bond. The hearing is recessed.
    [Whereupon, at 11:05 a.m., Thursday, April 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
